<html>
<title> - U.S. POLICY AND STRATEGY IN THE MIDDLE EAST</title>
<body><pre>[Senate Hearing 115-199]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 115-199

                  UNITED STATES POLICY AND STRATEGY IN
                            THE MIDDLE EAST

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, DECEMBER 14, 2017

                               __________

         Printed for the use of the Committee on Armed Services





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.fdsys.gov/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-590 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
        
        
        
        
        
        
        
        
        
        
        
        
        


                      COMMITTEE ON ARMED SERVICES

                        JOHN McCAIN, Arizona, Chairman
JAMES M. INHOFE, Oklahoma               JACK REED, Rhode Island
ROGER F. WICKER, Mississippi            BILL NELSON, Florida
DEB FISCHER, Nebraska                   CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas                    JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota               KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa                        RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina             JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska                    MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia                   TIM KAINE, Virginia
TED CRUZ, Texas                         ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina          MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska                     ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama                 GARY C. PETERS, Michigan
                          
                          Christian D. Brose, Staff Director
                     Elizabeth L. King, Minority Staff Director

                                  (ii)

  











                         C O N T E N T S

_________________________________________________________________________

                           December 14, 2017

                                                                   Page

United States Policy and Strategy in the Middle East.............     1

Crocker, Ambassador Ryan C., Diplomat-in-Residence, Woodrow           5
  Wilson School of Public and International Affairs, Princeton 
  University.
Edelman, Ambassador Eric S., Counselor, Center for Strategic and      6
  Budgetary Assessments.
Jeffrey, Ambassador James F., Philip Solondz Distinguished           15
  Fellow, Washington Institute for Near East Policy.
Jones, Ambassador Stuart E., Vice President, The Cohen Group.....    19

                                 (iii) 
 
                      U.S. POLICY AND STRATEGY IN 
                            THE MIDDLE EAST

                              ----------                              


                      THURSDAY, DECEMBER 14, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator James 
Inhofe presiding.
    Members present: Senators Inhofe, Wicker, Fischer, Cotton, 
Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, Sasse, Reed, 
Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Kaine, King, Heinrich, Warren, and Peters.

           OPENING STATEMENT OF SENATOR JAMES INHOFE

    Senator Inhofe. The hearing will come to order.
    The committee meets today to receive testimony on the U.S. 
policy and strategy in the Middle East.
    First of all and foremost, I want to submit for the record 
the statement by Chairman McCain, who is not here today.
    [The prepared statement of Senator McCain follows:]

            Prepared Statement by SASC Chairman John McCain
    Washington, DC--U.S. Senator Jim Inhofe (R-OK) submitted the 
following statement for the record on behalf of Senator John McCain (R-
AZ), Chairman of the Senate Armed Services Committee, today at a 
hearing on U.S. policy and strategy in the Middle East:
    ``The Senate Armed Services Committee meets today to receive 
testimony on U.S. policy and strategy in the Middle East.
    ``When we last met to discuss the region some months ago, the 
situation was vastly different than the one we see today. The United 
States and its coalition partners have achieved great success against 
ISIS, liberating its former capital of Raqqa and forcing it out of 
major cities across Iraq. The caliphate that terrorists claimed would 
overrun the Middle East has diminished significantly in physical size, 
despite the persistent influence of its ideology.
    ``Our achievements are worth celebrating. But our challenges in the 
region remain daunting despite our hard-won tactical victories. Our 
relentless and essential focus on destroying ISIS has obscured a 
troubling reality: the United States lacks a clear, comprehensive 
strategy that addresses the Middle East in all of its complexity.
    ``This is part of the unfortunate legacy that the last 
administration left for its successor. But nearly one year into this 
administration, we still lack clarity on essential questions about our 
nation's role in the Middle East. We are left to observe the 
intensifying symptoms of a collapsing regional order as bystanders. 
While in some cases we are bystanders who take action, we do so with 
unstated and often unclear objectives.
    ``Our power and influence are diminishing in the Middle East as a 
result of our lack of direction, and the vacuum has been filled by 
forces working contrary to American interests. Consider the events that 
have swept the region in recent months.
    ``In Syria, the Assad regime--backed by Russia, Iran, and 
Hezbollah--has retaken significant territory but shows no signs of 
addressing the humanitarian crisis they largely created, which has 
destabilized nations throughout the region and could serve as the 
breeding ground for radicalization.
    ``In Iraq, tension between the Government of Iraq, Iranian-backed 
militias, a number of Kurdish factions, and a displaced Sunni 
population could transform next year's election from a triumph for that 
nation into a setback that could pave the way for the resurgent 
sectarian tension and minimize America's ability to support stability 
in the region. The recent terrorist attacks in New York show the 
persistent appeal of extremist ideology; its rise in the wake of U.S. 
withdrawal years ago demonstrates the danger of leaving before winning 
the peace.
    ``Lebanon was recently gripped by a political crisis in which Prime 
Minister Hariri resigned in Saudi Arabia under the cloud of foreign 
interference only to return home to reassume his authority--a welcome 
development given his role as a valued partner who supports peace and 
security amid divided government where Hezbollah plays a major role.
    ``A web of Iranian proxies and allies is spreading from the Levant 
to the Arabian Peninsula, threatening stability, freedom of navigation 
and the territory of our partners and allies, including with advanced 
conventional weapons. Iran itself continues to menace its neighbors, 
use its sanctions relief windfall to harmful ends, test ballistic 
missiles, and spread weapons throughout the region.
    ``According to our allies and partners, Houthi rebels in Yemen 
recently launched an Iranian-provided missile at the airport in Riyadh. 
Meanwhile, our Arab allies are embroiled in infighting and diplomatic 
disputes that weaken regional cooperation and coalition efforts in the 
face of these pressing threats.
    ``Saudi Arabia itself is in the midst of monumental change. The 
recent appointment of a new crown prince, the arrest of a number of 
prominent Saudi citizens, and the Kingdom's ongoing war in Yemen--which 
has spawned a humanitarian crisis of its own--indicate a forcefulness 
that promises progress but also raises concerns about internal 
stability and regional conflict. Ultimately, it could serve to 
strengthen Saudi rivals.
    ``The President's decision last week to recognize Jerusalem as 
Israel's capital acknowledges what many of us have long believed--but 
it also raises issues that must be resolved by Israelis and 
Palestinians as part of a comprehensive, internationally supported 
diplomatic strategy to achieve lasting peace and security.
    ``Meanwhile, Turkey and Egypt are both poised to grow closer to 
Vladimir Putin's Russia, which casts a long shadow throughout the 
region as it reestablishes itself as a power broker hostile to our 
interests and our values.
    ``These challenges are daunting, confusing, and complex. We know we 
cannot neglect them any more by virtue of hard experience--whether in 
light of Iran's decades-long campaign targeting its independent-minded 
neighbors in the region as well as the United States or ISIS's rise 
after America turned away from Iraq and Syria. We also know that if we 
keep sleepwalking on our current trajectory, we could wake up in the 
near future and find that American influence has been pushed out of one 
of the most important parts of the world.
    ``We must remain engaged in the Middle East because the stability 
of the region is vital to our national interests and international 
security alike. As we know, Middle Eastern instability travels far 
beyond its borders--not only in the form of terrorist attacks in places 
like Paris, Brussels, Ankara, the Sinai Peninsula, and San Bernardino 
or fluctuations in the global economy, but in the form of refugee 
crises, the proliferation of weapons, and human suffering magnified the 
world over.
    ``If we do not consolidate our recent gains in the Middle East and 
ensure that the United States and its partners are positioned to 
maintain a foothold and strong relationships in the region, we will end 
up facing down the same problems again and again as other demanding 
challenges elsewhere arise.
    ``Yet despite our current predicament, this moment is not without 
opportunities. The United States has numerous comparative advantages 
vis-a-vis our rivals and unique opportunities to contest influence with 
them in the region. The question is whether we will be resourceful 
enough to capitalize upon them and wise enough to use them carefully in 
view of our other commitments around the globe.
    ``Our witnesses are uniquely qualified to speak to how we should 
engage all elements of national power in this effort. Today, we 
welcome:

    <bullet>  ``Ryan Crocker, Diplomat-in-Residence at the Princeton 
University and the former Ambassador to Iraq, Syria, and Lebanon;
    <bullet>  ``Eric Edelman, Counselor at the Center for Strategic and 
Budgetary Assessments and former Under Secretary of Defense for Policy 
and Ambassador to Turkey;
    <bullet>  ``James Jeffrey, Distinguished Fellow at the Washington 
Institute for Near East Policy and former Ambassador to Iraq and 
Turkey; and
    <bullet>  ``Stuart Jones, Vice President of the Cohen Group and 
former Ambassador to Iraq and Jordan.

    ``Our witnesses are all distinguished veterans of our nation's 
Foreign Service who, between them, possess over a century of experience 
as diplomats and national security policymakers focused on the Middle 
East. This kind of deep knowledge of, and experience with, our hardest 
challenges in the world is the reward we reap when we invest in the men 
and women of our State Department--and why it is more important than 
ever that our nation continue to do so.
    ``Given that we have once again enjoyed success on the battlefield 
against our most immediate foe, it seems appropriate to call upon our 
witnesses' diplomatic experience to identify how we can consolidate our 
gains, seek political solutions, and ensure peace and security. At this 
critical juncture, winning the hard-fought peace in places like Iraq, 
strengthening our partnerships, and deterring our adversaries is 
perhaps even more of a diplomatic and economic matter than it is a 
military one--and we welcome your views on how our work overseeing the 
Department of Defense can support our country's broader efforts.''

    Senator Inhofe. We are joined this morning by a group that 
we all know well. You have all been before this committee. As I 
mentioned to you a minute ago, I think most of the members of 
this committee have seen you in action in the field.
    Ambassador Crocker, you are a Diplomat-in-Residence with 
the Woodrow Wilson School of Public and International Affairs 
at Princeton University. You have been all over the map in the 
last couple of decades.
    Ambassador Eric Edelman, Counselor, Center for Strategic 
and Budgetary Assessments. By my account, this is your ninth 
appearance before this committee. Does that sound right to you? 
Yes.
    Ambassador Jeffrey, the Philip Solondz Distinguished 
Fellow, Washington Institute for Near East Policy. I remember 
being with you in Turkey and other places.
    Ambassador Stuart Jones, Vice President of The Cohen Group. 
Your presence was appreciated by, I think, every member here in 
both Jordan and Iraq.
    So, it is great to have all of you here.
    Much of our nation's attention over the last two decades 
has gone toward the Middle East in terms of military 
operations, and that's appropriately so. We faced very real and 
dangerous threats originating from the Middle East, and we've 
seen that the problems there are extremely complex. For 
example, we formed and led an international coalition to defeat 
ISIS [Islamic State of Iraq and Syria], and with our local 
partners on the ground in Iraq and Syria we have largely done 
that. Just last Saturday, Prime Minister Abadi announced the 
defeat of ISIS in Iraq.
    So it's long past time for us to turn our attention to the 
broader strategy and the national objectives in that region, as 
our competitors are already doing, Iran and Russia.
    I'm very encouraged that under the leadership of President 
Trump, America is beginning to reclaim some of its worldwide 
leadership that has waned for the past eight years. In October, 
the Administration released an outline detailing a strategy to 
counter Iranian malign influence. The President also declined 
to certify the sanctions relief as a part of the Iran nuclear 
deal. That was something a lot of people didn't realize, that 
the President has to, on a periodic basis, keep that alive. So 
we have started a process now, and I think it was the right 
decision.
    The President also was encouraged by the recent activity 
that has taken place--by the way, some of us were with 
Netanyahu when that decision was made, and I've never seen a 
happier guy. At the same time, of course, he was very 
encouraged by the recent decision to move the United States 
Embassy from Tel Aviv to Jerusalem, in concert with current law 
and broad bipartisan support. This is something that we decided 
to do 20 years ago, and finally we're doing it. So that's good 
news.
    We have great witnesses. I look forward to the testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I want to commend Senator McCain for scheduling this 
hearing and thank Chairman Inhofe for leading it today. It's 
very important.
    Also, let me thank the witnesses. I've had the privilege 
and pleasure of working with you. You have made invaluable 
contributions to the national security of the United States in 
so many different capacities. When Chairman Inhofe mentioned 
that Ambassador Edelman had been nine times here, I think 
you're all recidivists, in a very positive way. So, thank you 
very much. We are indeed fortunate to have you here today. I'm 
very confident you're going to provide valuable insights for a 
very challenging area of the world, the Middle East.
    Working with our partners on the ground, we have made great 
progress in our efforts to dismantle the so-called ISIS 
caliphate. According to the United States Central Command, in 
the last three years the coalition has liberated more than 4.5 
million people and 52,000 square kilometers of territory from 
ISIS control. This is a significant achievement for the 
coalition and our Iraqi and Syrian partners.
    It is also important to recognize that ISIS, al Qaeda, and 
other violent extremists are not yet defeated and remain intent 
on attacking the United States and our interests, while taking 
advantage of opportunities afforded by destabilization in the 
Middle East. Despite our operational success since ISIS, we 
have not achieved similar success in addressing the political 
and social challenges in the Middle East that gave rise to ISIS 
in the first place. Our efforts to deal with ISIS, al Qaeda and 
others, to deal them a lasting defeat must not rest with the 
Department of Defense alone. Sustainable solutions will require 
significant contributions from the State Department, USAID 
[United States Agency for International Development], and 
others.
    Unfortunately, our ability to achieve such a whole-of-
government approach is hampered by massive proposed cuts to the 
State Department's budget and the fact that our current 
diplomats are leaving government service at an alarming rate.
    Each of you has deep experience in utilizing the non-
military tools of our national power, and I hope you will 
provide the committee with your views on how such tools can be 
more effectively leveraged.
    Violent extremism is not the only national security 
challenge facing the United States in the Middle East: the 
success of the Iranian nuclear deal in putting a halt to the 
greatest threat facing the United States and our allies in the 
region, namely a nuclear-armed Iran; the Quds forces and its 
proxies continue their campaign of malign and destabilizing 
activities across the region, most notably in Syria, Iraq, and 
Yemen. Coupled with an increasingly assertive foreign policy 
exhibited by Saudi Arabia, it is hard to imagine the 
geopolitical landscape in the Middle East being more 
complicated than it is today.
    If we are to successfully navigate these challenges, we 
need to be clear in communicating our values and objectives. 
From the re-tweeting of anti-Muslim rhetoric to last week's 
announcement concerning the United States Embassy in Israel, 
the President has repeatedly made it more difficult for our 
national security and diplomatic professionals to do their 
jobs. The risk of failed United States policy in the Middle 
East is significant, and we can't afford any unforced errors.
    I again want to thank our witnesses not only for being here 
today but for their significant contribution to our country 
through their decades of work in the Foreign Service. I look 
forward to your testimony. Thank you very much.
    Senator Inhofe. Thank you, Senator Reed.
    We'll start with you, Ambassador Crocker.
    All of you know that we try to keep our comments down to 
about five minutes and give our well-attended meeting here time 
to ask questions.
    Ambassador Crocker?

STATEMENT OF AMBASSADOR RYAN C. CROCKER, DIPLOMAT-IN-RESIDENCE, 
  WOODROW WILSON SCHOOL OF PUBLIC AND INTERNATIONAL AFFAIRS, 
                      PRINCETON UNIVERSITY

    Ambassador Crocker. Thank you, Mr. Chairman, Ranking Member 
Reed, members of the committee. It's a privilege to be here 
today.
    The timing, I think, is fortuitous. We are at, in my view, 
a strategic inflection point with the military defeat of 
Islamic State to try to answer the ``now what?'' question. As 
you both said, the military defeat is necessary but, I would 
suggest, not sufficient. I think it is helpful to remember what 
happened when I was in Iraq, 2009 through the surge. We just 
pounded Islamic State's predecessor, al Qaeda in Iraq, but we 
could never quite eliminate them. They would find little 
crevices in Mosul and up the Euphrates River Valley.
    Why did they find them? It's important to remember, then as 
now, that al Qaeda in Iraq and Islamic State are not, in and of 
themselves, the problem. They are the symptom of the problem. 
The problem has been--and this goes throughout the region--the 
failure to establish good governance, the failure to establish 
rule of law and institutions where all citizens in Iraq, and 
now in Syria, feel safe. That has not happened.
    To take, again, the 30,000-foot view, if one looks at the 
modern Middle East, which is roughly 100 years old--it grew out 
of World War I and the Versailles Treaty of 1919--if there is 
one single consistent point of failure, it is governance. We 
have seen ``isms'' come and ``isms'' go--imperialism and 
colonialism under the British and the French; monarchism in 
some of the central countries like Egypt and Iraq; Arab 
nationalism personified by Nassar; undiluted military 
authoritarianism, again in Iraq; Arab socialism in Iraq and 
Syria; communism in South Yemen. Now we deal with Islamism.
    The good news is that it, too, is failing. The bad news is 
that the underlying issues of governance which led to the 
failure of every other ``ism'' are still untreated, and if we 
are unable to help our friends in the area get to a better 
place on these issues, you're going to see a successor to 
Islamic State. I don't know who. I do know that it will not be 
good news for us.
    There is a second inflection point that I'd hope we would 
have a chance to address today. The United States designed and 
led the post-World War II international order. That leadership 
changed, or that attitude to leadership changed over the last 
eight years. President Obama spoke of not being able to do 
everything. That's certainly true. Too often I think that 
became an excuse for not doing much of anything.
    Sadly, I think we're seeing some continuity between the 
administrations, from President Obama to President Trump, on 
this issue. Are we going to lead? If not, who will? If not, 
what might the consequences be?
    So I would urge, before we back out of that international 
order from post-World War II that we established and led, we 
need to think about the consequences.
    I would say, finally, it's hard to do any of this if you 
don't have the people to do it. The budget cuts suggested by 
the Administration will do severe damage to both our diplomacy 
and our development. These things count. I would applaud the 
Congress, which has reacted to these proposed cuts. I think 
it's very important that they not go forward or you're going to 
see a weakened Foreign Service far into the future with some 
very significant consequences.
    Lastly, truth in advertising here. I sit on the board of 
Mercy Corps International. We are heavily engaged on a number 
of issues. The one I'd like to highlight would be Syrian 
refugees. Mercy Corps doesn't do resettlement. We focus on 
keeping refugees as close to their home country as we can. So 
we're extremely active in Jordan, and in Lebanon in particular.
    Why? That could be the long-term ultimate danger of this 
Syrian problem. We saw what happened with Palestinian refugees, 
where a spirit of hopelessness in refugee camps bred an entire 
generation of terrorism. We are working out there to try to get 
the resources and the programs that will get young Syrian 
refugees a sense that they do have a future. If that funding is 
cut, as has been proposed, humanitarian aid by 40 percent, ESF 
[Economic Support Fund] by almost 45 percent, we may be fueling 
the next wave years down the line of terror.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Ambassador Crocker.
    Ambassador Edelman?

STATEMENT OF AMBASSADOR ERIC S. EDELMAN, COUNSELOR, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Ambassador Edelman. Thank you, Chairman Inhofe and Senator 
Reed, and members of the committee. It's a privilege to be 
here. While I don't normally want to speak for my Foreign 
Service colleagues on this panel, I think I do speak for all of 
us saying that I think all of us are thinking about Senator 
McCain today and wishing him very well in his recovery.
    I agree with my colleague, Ryan Crocker, that we are at an 
important inflection point in the Middle East, and I think for 
that reason it is particularly important that the committee has 
scheduled this hearing, and I cannot tell you how proud I am to 
sit here in this company because I have enormous respect for my 
colleagues on this panel.
    What I thought I would do is just talk about three things, 
really: why I think the region remains strategically important 
to the United States; the two large strategic challenges I 
think the United States faces in the region; and maybe some 
thoughts about what we might do about those.
    First, I think there is a disposition in Washington that 
people talk about the Middle East today after a decade-and-a-
half of difficult and seemingly inconclusive counter-insurgency 
operations in the region and growing United States energy, if 
not independence, at least self-sufficiency, to want to look at 
the region as something we ought to disengage from and try and 
limit our liability in the region.
    But I would argue that, picking up a theme that Ambassador 
Crocker touched on, that as tempting as disengagement might be, 
I think it's important to bear in mind that it would reverse a 
strong bipartisan consensus over the past 60 years that the 
maintenance of a stable regional balance of power in the Middle 
East and the prevention of any external or regional power from 
dominating this area of the world is vital to the nation's 
security.
    I think that's the case because, first of all, the energy 
resources of the region remain important to our allies in 
Europe and Asia, but also because global energy prices can 
affect our own economy. So even with our own self-sufficiency, 
were large segments of Middle Eastern oil to go offline because 
of a crisis in the region, the economic impact on the United 
States would be considerable.
    But moreover, I think the problem is that, what Ken Pollack 
at AEI [American Enterprise Institute] says, ``What happens in 
the Middle East does not stay in the Middle East.'' This region 
is a cauldron of poor governance and disaffection and, as a 
result, a petri dish for extremism that frequently manifests 
itself in terrorist attacks against our allies in the region, 
our allies in Europe, and ultimately the homeland here in the 
United States itself.
    Since 2009, I think the United States has largely pursued a 
policy of retrenchment and limited liability which I think has 
had the unfortunate consequence of raising concerns about the 
U.S. role as a security guarantor in the region. I think that's 
been exacerbated by some of the consequences of the Joint 
Comprehensive Plan of Action [JCPOA] which has freed up 
resources for Tehran to use for its own purposes, both to 
procure weaponry for itself, but also to support its proxies in 
the region, pursuing an agenda of malign activity.
    I agree with my colleague that there's been more continuity 
than at least I would like in the policies of the Trump 
Administration, which are couched in very different rhetoric 
but have broadly continued the previous administration's 
policies, perhaps reflecting the views that President Trump 
expressed during the campaign that the whole region, as he put 
it, was one big fat quagmire. But I do think it's something 
that requires some renewed attention and a new strategy.
    I mentioned the twin challenges, and those I think were 
touched on by my colleagues, and it won't come as any surprise 
that the two challenges are Iran's quest for regional hegemony, 
and very much intertwined with that is the threat, the 
persistent threat of Sunni Islamic extremism, even after the 
demise of the Islamic State's physical caliphate. These two 
threats, I would stress, drive the region's many crises, and 
they also drive one another. So Iranian expansionism and 
activity and support for Shiite militias and proxies in Iraq 
and Syria also fuel Sunni extremism, and vice-versa.
    I think the most urgent thing that the United States needs 
to do is to develop a strategy and a plan and a policy that 
reflect the new realities on the ground in Syria, where Iran is 
currently at its most vulnerable and potentially over-extended, 
and where the potential for renewed Sunni extremism is perhaps 
highest. ISIS has lost its self-declared caliphate, as Senator 
Reed noted, but the presence of Russian forces, Iranian forces, 
Iranian-sponsored Shiite militias, Hezbollah, et cetera, have 
allowed Tehran and Moscow to emerge for the moment as the 
arbiters of post-war Syria and have allowed Iran to consolidate 
at least the perception that they have a land bridge that links 
Tehran directly to Lebanon and to right on the Israeli and 
Jordanian borders.
    Although there are few really appealing options at this 
point in Syria, I think we can and should exploit Iranian over-
extension there. I welcome Secretary Mattis' recent statement 
that United States troops will remain in Syria to prevent the 
reemergence of ISIS. I think that's a necessary first step. But 
I think that will only be possible if we can help our Syrian 
allies, the Syrian Democratic Forces, hold strategic territory 
that's been liberated from ISIS control. I think that will help 
provide leverage for the United States in determining Syria's 
post-war fate, and also pose some obstacles and impose some 
costs on Iran.
    I think in general we need to develop more leverage with 
Iran so we can impose costs more effectively, and I would make 
a few suggestions about what we might do in that regard. First, 
I think we ought to have public discussion about dusting off 
and updating our contingency plans for neutralizing Iran's 
nuclear facilities should Iran materially breach or withdraw 
from the JCPOA in response either to sanctions that this body 
chooses to impose or because of more vigorous United States 
enforcement of the agreement itself.
    Just as it appears to be doing with North Korea, I think 
the Pentagon ought to be putting in place the capabilities to 
potentially shoot down future Iranian ballistic missile tests. 
Iran is developing a very large, very variegated ballistic 
missile capability. No country that has done that on the scale 
that Iran has done it has ever not ultimately become a nuclear 
weapons state.
    I think it's equally important for the United States to 
cooperate very closely with our regional allies, and I'll defer 
any further discussion of that because I believe all of my 
colleagues agree with that and will want to talk about it.
    I think we have to recognize that Russia has been so far an 
obstacle, not a partner, in building security in this region, 
and I think we would do well not to allow ourselves to be 
deluded into thinking that we can somehow easily split Russia 
and Iran from each other. For a lot of reasons that we could go 
into, I don't think that's likely to happen.
    I think we also need to increase the internal pressures on 
the Iranian regime. This remains a very deeply unpopular 
regime. I fear that the JCPOA has actually mostly benefitted 
the hardliners in Iran because they're the ones who control the 
economic sectors that stand most to benefit from the sanctions 
relief. But it's also made them more dependent on a narrowing 
band of loyalists to maintain stability, as everyday Iranians 
feel very little benefit from the sanctions relief.
    I think we can exploit all of this. A more aggressive 
political information campaign can amplify international 
investors' wariness of the Iranian market by highlighting the 
complexities of sanctions compliance, as well as the elites' 
corrupt business dealings and systematic human rights abuses.
    Finally, I think we need to enforce the JCPOA to address 
Iran's serial under-compliance, which is what I would call it, 
with the agreement. I think this has begun to eat away at our 
credibility with Iran and raises the risks of continuing 
nibbling at the edges of this agreement, which when it expires 
will put Iran at the cusp of having a nuclear capability, as 
President Obama admitted at the time of the JCPOA's 
negotiation.
    Through these steps, a lot of these are difficult steps to 
take, but I think we need to start taking them now because 
otherwise I'm afraid we will see further erosion in the U.S. 
position in the region.
    With that, let me stop, and I look forward to your 
questions.
    [The prepared statement of Ambassador Edelman follows:]

            Prepared Statement by the Honorable Eric Edelman
                              introduction
    Mr. Chairman, Ranking Member Reed, Members of the Committee, thank 
you for the opportunity to appear before you today on the need for a 
coherent strategy to address the manifold challenges confronting the 
United States in the Middle East. I have been intimately involved with 
the region throughout my career, including as Ambassador to Turkey and 
Under Secretary of Defense for Policy. I have continued working on this 
issue since retiring from government service in 2009 as counselor at 
CSBA, as the Roger Hertog Distinguished practitioner in residence at 
Johns Hopkins SAIS, and as co-chair of task forces sponsored by JINSA's 
Gemunder Center for Defense and Strategy and Bipartisan Policy Center. 
In these capacities, I have co-authored a range of reports laying out 
recommendations for U.S. strategy, but the views expressed here today 
are purely my own. \1\
---------------------------------------------------------------------------
    \1\ I would like, however, to thank Jonathan Ruhe, Associate 
Director of the Gemunder Center at JINSA for his assistance in 
preparing this testimony and my colleagues on the JINSA, Bipartisan 
Policy Center, and Brookings task forces cited below for instructing me 
on the strategic issues that bedevil U.S. policy in the region. I would 
also like to thank my CSBA colleagues whose work on a Eurasian Defense 
Strategy for the United States is also reflected in this statement.
---------------------------------------------------------------------------
    As on other issues, our country is currently roiled in debates over 
what role the United States should play in the Middle East, as well as 
what role the region should play in our broader strategic calculus. 
Although the Middle East remains increasingly complex and volatile, and 
as the threats emanating from the region continue to threaten the U.S. 
and our allies both in the region and beyond, these debates are far 
from academic. I, therefore, applaud this committee for examining these 
matters and assembling today's panel of distinguished Foreign Service 
colleagues who have wrestled with the most intractable elements of the 
problems we face in the Middle East.
                     the middle east still matters
    It has become a cliche to say that the American public is ``war-
weary'' and supports diminished engagement with the world. There is 
certainly empirical evidence for that proposition. According to poll 
data from the Pew Center, in the run-up to last year's election, 
Americans wanted the new president to prioritize domestic over foreign 
policy by a nationwide margin of four to one, as compared to an equal 
split only a decade prior. \2\ Fifteen years and counting of difficult 
and seemingly inconclusive counterinsurgency (COIN) and stabilization 
operations in Iraq and Afghanistan, plus America's growing energy self-
sufficiency, have fed the growing sense that the United States must 
bring the ``endless wars'' in the Middle East to a conclusion. This 
perception of public pressure has led the United States to attempt to 
limit its liability in the region by drawing down the U.S. military 
presence and extricating ourselves from the region's seemingly endless 
problems.
---------------------------------------------------------------------------
    \2\ ``Public Uncertain, Divided Over America's Place in the 
World,'' Pew Research Center, May 5, 2016; and Richard Wike, ``Where 
Americans and Europeans Agree, Disagree on Foreign Policy,'' Fact Tank, 
Pew Research Center, June 14, 2016.
---------------------------------------------------------------------------
    However tempting a strategy of disengagement might be, we should 
bear in mind that it would reverse a strong bipartisan consensus over 
the past 60 years that the maintenance of a stable regional balance and 
prevention of any external or regional power from dominating the Middle 
East is vital to the nation's security. After World War II, the Middle 
East, along with Europe and Asia, was seen as one the vital theaters in 
which the Cold War confrontation with Soviet power would play out. 
United States policymakers have considered access to the region's 
energy resources vital for United States allies in Europe, and 
ultimately for the United States itself. Moreover, the region's 
strategic location--linking Europe and Asia--made it particularly 
important from a geopolitical point of view.
    By the late 1960s, the United States assumed de facto 
responsibility as the outside guarantor of regional security. The 
British relinquished their commitments east of Suez, culminating in the 
Carter Doctrine, which explicitly threatened the use of United States 
military force to prevent ``any outside force'' from dominating the 
Persian Gulf. At the time, this was correctly understood as a response 
to the Soviet invasion of Afghanistan and the possibility that the USSR 
would attempt to take advantage of the upheaval in revolutionary Iran 
to extend its dominion in the region. As a practical matter, the United 
States also made clear over the years that hegemony by a regional power 
was equally antithetical to the U.S. national interest. It was for that 
reason that the United States went to war to liberate Kuwait in 1991 
and pursued a policy of ``dual containment'' against both Iraq's and 
Iran's ambitions to dominate the region. \3\
---------------------------------------------------------------------------
    \3\ For an in-depth examination of the historical United States 
role in the Middle East, see Eric S. Edelman and Whitney Morgan 
McNamara, Contain, Degrade, and Defeat: A Defense Strategy for a 
Troubled Middle East (Washington, DC: Center for Strategic and 
Budgetary Assessments, March 15, 2017), pp. 3-19.
---------------------------------------------------------------------------
    Since 2009 the United States has pursued a policy of retrenchment 
and limited liability in the region that has raised questions about its 
role as the Middle East's security guarantor. This was first made clear 
during the Obama Administration, which expressed through policy 
statements its desire to unburden America of the region altogether and 
``pivot'' to East Asia. As a result, the United States withdrew from 
Iraq at the end of 2011, it failed to uphold its own red line against 
Assad's use of chemical weapons in Syria in 2013, and President Obama 
expressed a desire for Saudi Arabia and Iran to ``share the 
neighborhood and institute some sort of cold peace.'' \4\
---------------------------------------------------------------------------
    \4\ Jeffrey Goldberg, ``The Obama Doctrine,'' The Atlantic, April 
2016.
---------------------------------------------------------------------------
    The Joint Comprehensive Plan of Action (JCPOA) on Iran's nuclear 
program removed some limits on Iran's power projection capabilities by 
freeing up resources that Tehran subsequently redirected to its weapons 
programs and support for proxies. The agreement was seen by many Sunni 
Arab allies in the region as undermining United States pledges to 
constrain Tehran's revisionist ambitions in the region. \5\ President 
Trump's policies in the region to this point, although couched in very 
different rhetoric, have broadly continued the policies of his 
predecessor, perhaps reflecting the views of the Middle East he put 
forth during the campaign. He called it ``one big, fat quagmire'' and 
welcomed Russian intervention in Syria. Whether or not he will put into 
place a different strategy remains an open question. \6\
---------------------------------------------------------------------------
    \5\ ``Strategy to Restore U.S. Leverage Against Iran,'' JINSA 
Gemunder Center Iran Task Force, July 2017, p. 20.
    \6\ ``This Week' Transcript: Donald Trump,'' ABC News, October 14, 
2015.
---------------------------------------------------------------------------
    Notwithstanding the region's difficulties and an understandable 
desire to disengage, the geostrategic and economic factors that made 
the Middle East so important to our national security in the past are 
just as potent today. First, despite rising U.S. energy production and 
prospective self-sufficiency, real or even potential disruptions to the 
flow of oil anywhere would have serious negative effects on our 
economy. This is especially true of the Middle East, which contains 
half of global proven oil reserves, accounts for one-third of oil 
production and exports, and is home to three of the world's four 
biggest oil transit chokepoints. Moreover, U.S. allies remain 
vulnerable to disruptions in the flow of oil. \7\
---------------------------------------------------------------------------
    \7\ BP Statistical Review of World Energy, 66th edition (London: 
BP, June 2017), pp. 13-24; and Energy Information Administration (EIA), 
World Oil Transit Chokepoints (Washington, DC: U.S. Department of 
Energy, July 25, 2017). See also Commission on Energy and Geopolitics, 
Oil Security 2025: U.S. National Security Policy in an Era of Domestic 
Oil Abundance, (Washington, DC: Securing America's Future Energy 
[SAFE], 2014).
---------------------------------------------------------------------------
    Second, due to globalization and the region's critical location, 
instability there still reverberates outward through Europe, Africa, 
East Asia, and even the American homeland. \8\ This depends very little 
on our direct involvement in the region, as radical Islamists have made 
clear their grievances run much deeper than our footprint there. \9\ 
Indeed, ISIS only grew into a regional, then global, threat largely 
because of our diminishing presence and the security vacuum it created. 
At the same time, the Assad regime's indiscriminate offensives against 
its own people have triggered massive refugee outflows that are 
exacerbating Europe's already strained economic and social fabric and 
threatening to overwhelm the security institutions of some our closest 
allies.
---------------------------------------------------------------------------
    \8\ For an analysis of the continued importance of the Middle East 
to the United States, see Edelman and McNamara, Contain, Degrade, and 
Defeat, pp. 22-23.
    \9\ ``Seeking Stability at Sustainable Cost: Principles for a New 
U.S. Strategy in the Middle East,'' Bipartisan Policy Center, April 
2017, p. 5.
---------------------------------------------------------------------------
    Third, the United States has strong incentives to support our 
regional allies both as a matter of our ideals and our interests. If we 
are seen to be abandoning our Gulf partners in the face of Iran's 
aspirations to dominate the region, or if we walk back our red lines on 
Syria, how can we be trusted--by friends or by foes--to maintain our 
commitments elsewhere in the world like the Baltics, the Korean 
Peninsula, or the South China Sea?
                       addressing twin challenges
    Today there are two primary, intertwined threats to U.S. interests 
in the Middle East, not counting the underlying absence of a real U.S. 
strategy to address them. First is Iran's quest for regional hegemony 
through increasingly overt interventions in neighboring conflicts, 
support for terrorist proxies, and its continuing pursuit of weapons 
capabilities like ballistic missiles--capabilities that, in the long 
run, only make sense in the context of achieving a nuclear capability, 
which will be within reach when the terms of the JCPOA expire. The 
second is the persistence of Sunni Islamic extremism, even after the 
demise of the Islamic
    State's physical caliphate in Syria and Iraq. These two threats 
drive the region's many crises, and also one another: Iranian expansion 
fuels Sunni extremism, and vice versa. \10\
---------------------------------------------------------------------------
    \10\ ``Seeking Stability at Sustainable Cost,'' pp. 7-8.
---------------------------------------------------------------------------
    These twin symbiotic challenges will only grow more dangerous over 
time if a security vacuum is created by an absence of U.S. leadership. 
American policymakers must rebuild what Dean Acheson called 
``situations of strength'' by disrupting this destabilizing dynamic 
that threatens the entire region. \11\
---------------------------------------------------------------------------
    \11\ For the importance of building up U.S. strength more broadly 
to secure U.S. national security, see Derek Chollet et al., Building 
``Situations of Strength'': A National Security Strategy for the United 
States (Washington, DC: Brookings Institution, February 2017). For the 
background on Acheson, see John Lewis Gaddis, Strategies of 
Containment: A Critical Appraisal of American National Security Policy, 
revised and expanded edition (New York: Oxford University Press, 2005), 
pp. 80-81.
---------------------------------------------------------------------------
             adopt a post-isis strategy for syria and iraq
    Most urgently, the United States needs a plan reflecting the new 
realities on the ground in Syria, where Iran is currently the most 
vulnerable and the potential for renascent Sunni extremism is the 
highest. ISIS has lost its self-declared caliphate; at the same time, 
the Assad regime is trying to take back the entire country with 
significant assistance, and even direction, from Russia, Iran, 
Hezbollah, and other Iranian-sponsored foreign Shi'a militias. These 
gains threaten to entrench Tehran and Moscow as the arbiters of postwar 
Syria, consolidating Iran's control of a ``land bridge'' connecting it 
directly to Lebanon. \12\ By placing the country even more firmly under 
what is sure to be seen as a Shiite thumb--one that has profoundly 
alienated Syria's Sunnis--this outcome would also fuel the grievances 
driving recruitment for ``ISIS 2.0,'' not to mention the local al Qaeda 
affiliate Tahrir al-Sham and other jihadist groups still battling the 
regime in northwest Syria. \13\
---------------------------------------------------------------------------
    \12\ ``Countering Iranian Expansion in Syria,'' JINSA Gemunder 
Center Iran Task Force, July 2017, p. 7.
    \13\ ``Seeking Stability at Sustainable Cost,'' pp. 10-11.
---------------------------------------------------------------------------
    While there are few appealing options in Syria, we can and should 
exploit Iran's overextension there to create the conditions for an 
acceptable outcome. Defense Secretary Mattis' recent statement that 
United States troops will remain in Syria to prevent the reemergence of 
ISIS is a necessary first step. \14\ As our JINSA Iran Task Force 
argued, Mattis' goal can only be accomplished if United States forces 
also help our surrogates on the ground--chiefly the Syrian Democratic 
Forces (SDF)--hold strategic territory liberated from ISIS.
---------------------------------------------------------------------------
    \14\ Jamie McIntyre and Travis Tritten, ``Jim Mattis on Syria: 
`We're not just going to walk away' after ISIS,'' Washington Examiner, 
November 14, 2017.
---------------------------------------------------------------------------
    This will provide vital leverage in determining Syria's postwar 
fate and pose serious obstacles to Iranian-backed forces reconquering 
the entire country, thus cementing their land bridge. It will also 
mitigate one of the greatest constraints on U.S. policy, which is 
simply the widespread belief in the region that the U.S. wants nothing 
more than to remove itself, and any leverage, as soon as ISIS is 
defeated. \15\
---------------------------------------------------------------------------
    \15\ Edelman and McNamara, Contain, Degrade, and Defeat, p. 66; and 
``Countering Iranian Expansion in Syria,'' pp. 12-13.
---------------------------------------------------------------------------
    The conflict against ISIS has allowed Iran to strengthen its grip 
over neighboring Iraq as well. As in Syria, Iran's sway over Iraq's 
security and interior ministries threatens to alienate the country's 
Sunnis--Arab and Kurdish--much as former prime minister Nouri al-
Maliki's purge of Sunnis contributed to ISIS running amok through Iraq 
in the first place. Iran's role in Iraq also gives it influence over a 
key producer in the global oil market, and its presence in Syria places 
it astride the strategic crossroads of the entire region. \16\
---------------------------------------------------------------------------
    \16\ ``Seeking Stability at Sustainable Cost,'' p. 10.
---------------------------------------------------------------------------
    Because an uncontested Iranian presence in these two countries 
would give it a dangerous edge in its quest for Middle East supremacy, 
the United States would be misguided to try to offset Iran's gains here 
by pushing back in secondary theaters like Yemen. Thwarting Iran's 
ambition to upend the regional order requires blocking it from creating 
a chain of satellite states across the region's heartland. This should 
include helping craft some form of local Sunni Arab governance to 
preempt the reemergence of the kinds of sectarian and economic 
grievances that fostered ISIS. Indeed, the United States will need to 
promote credible, accountable and inclusive--if not always democratic--
state and local political institutions in the region more broadly if it 
hopes to address the underlying permissive causes of Sunni extremism 
and Iranian expansion. \17\
---------------------------------------------------------------------------
    \17\ ``Seeking Stability at Sustainable Cost,'' pp. 11-12, 15-16.
---------------------------------------------------------------------------
            develop credible military leverage against iran
    Limiting the spread of these twin challenges in Syria and Iraq is 
the most urgent, but perhaps most difficult, task in the Middle East 
confronting American policymakers. Tehran has made deep inroads in both 
countries; it also shares longstanding ties with both antedating the 
current situation.
    As our JINSA Task Force argued, the United States must also develop 
leverage where it can impose costs most effectively and credibly on 
Iran's malign behaviors. Despite the JCPOA's sanctions relief windfall 
and the regular IRGC harassment of United States Navy vessels in the 
Persian Gulf, for now United States naval and air power in the theater 
outmatches Iran's. To begin, the Pentagon should announce it is 
updating contingency plans to neutralize Iran's nuclear facilities, 
should Iran materially breach or withdraw from the JCPOA in response to 
United States enforcement.
    Just as it appears to be doing to counter North Korean threats, the 
Pentagon must develop credible capabilities in preparation for a 
possible shoot-down of future Iranian tests of nuclear-capable 
missiles. \18\ To this end, Congress should consider requiring the 
Pentagon to forward-deploy part of our Aegis-equipped missile defense 
fleet to the Persian Gulf, as it already has in Europe and East Asia. 
United States Navy ships must also fully utilize rules of engagement to 
defend themselves and the Persian Gulf against Iran's continual 
violations of basic rules and norms at sea. \19\
---------------------------------------------------------------------------
    \18\ David E. Sanger and William J. Broad, ``Downing North Korean 
Missiles is Hard. So the U.S. Is Experimenting,'' New York Times, 
November 16, 2017.
    \19\ ``Strategy to Restore U.S. Leverage Against Iran,'' pp. 21, 
27.
---------------------------------------------------------------------------
    It is equally important the United States cooperate more closely 
with its regional allies. Policymakers must foster genuine collective 
defense among its Gulf partners--led by Saudi Arabia and the United 
Arab Emirates--that are taking it upon themselves, together, to push 
back against Iran. Formal United States military backing, as well as 
encouragement for sub rosa support from Israel, are crucial for 
directing these energies in concert against Iranian provocations--and 
to assuage their sense of insecurity and frustration with Tehran's 
increasingly outsized role in their backyard. We must work with these 
allies on robust multi-layered theater missile defenses and 
interoperable air and maritime defenses in the Persian Gulf. \20\
---------------------------------------------------------------------------
    \20\ ``Seeking Stability at Sustainable Cost,'' p. 13; and 
``Strategy to Restore U.S. Leverage Against Iran,'' p. 28.
---------------------------------------------------------------------------
    Furthermore, the recent ten-year Memorandum of Understanding (MoU) 
on United States defense assistance to Israel should be treated as the 
floor for cooperation, and the MoU's artificial caps on United States 
missile defense assistance to Israel must be removed. Not only do 
United States systems benefit directly from joint research and 
production with Israel, but Jordan and Egypt now effectively shelter 
under Israel's umbrella--the importance of which only increases with 
the IRGC and Hezbollah ensconced along the Golan Heights.
             recognize russia as an obstacle, not a partner
    Russia has played no small part in enabling Iran and its proxies to 
establish a new front against Israel and Jordan in southwest Syria. 
Indeed, there is a prevalent misperception that Moscow and Tehran could 
be profitably divided through deft United States diplomacy. In reality, 
both Russia and Iran want to roll back United States influence even 
further in the region, and each depends on the other to help it do so--
primarily in Syria, but also through deepening Russian diplomatic, 
economic and technical assistance for Iran's nuclear and conventional 
weapons programs. Benefitting as much as it does, Russia is unlikely to 
reduce its ties with Iran at anything approaching an acceptable cost to 
the United States. Nor is Moscow's approach to counterterrorism at all 
complementary to our own. On the contrary, Russia's indiscriminate 
bludgeoning of Syrian cities from the air destroyed the moderate 
opposition and gave further fuel to Sunni grievances. \21\
---------------------------------------------------------------------------
    \21\ ``Seeking Stability at Sustainable Cost,'' pp. 13-15.
---------------------------------------------------------------------------
         increase internal pressure against the iranian regime
    Hardliners within Iran's regime are the main beneficiaries of the 
JCPOA, as the Supreme Leader and IRGC control the economic sectors 
standing to gain the most from sanctions relief. Yet this also makes 
them dependent on a narrowing band of loyalists to maintain stability, 
especially as everyday Iranians fail to feel the benefits of sanctions 
relief. For all the regime's bluster toward America, it still fears 
being removed from power in the same way that it seized power in 1979.
    We should exploit these fears as an added form of leverage. A more 
aggressive political warfare campaign would amplify international 
investors' wariness of the Iranian market by highlighting the 
complexities of sanctions compliance, as well as the elite's corrupt 
business dealings and systemic human rights abuses. To this end, 
Congress and the administration should intensify ``non-nuclear'' 
sanctions on the regime and publicize to the Iranian populace exactly 
where the windfall from sanctions relief is going. \22\
---------------------------------------------------------------------------
    \22\ Edelman and McNamara, Contain, Degrade, and Defeat, p. 66; and 
``Strategy to Restore U.S. Leverage Against Iran,'' pp. 24-25, 29.
---------------------------------------------------------------------------
                  enforce nuclear restrictions on iran
    The United States must also rebuild leverage to address Iran's 
serial under-compliance with the JCPOA. This has slowly eaten away at 
United States credibility in Tehran's eyes and raises the risks of Iran 
continuing to advance toward nuclear weapons capability. Precisely 
because the
    JCPOA has been so disastrous, the United States must restore 
leverage over Iran before deciding the deal's fate. In addition to the 
measures already mentioned, this means imposing every restriction in 
the JCPOA and UN Security Council Resolution (UNSCR) 2231 regarding 
enrichment capacity, inspections, illicit procurement activities, and 
possible military dimensions of Iran's nuclear program. These 
concentric pressures offer the best prospects to force Tehran 
ultimately back to the negotiating table under circumstances far more 
favorable to the United States and its allies. \23\
---------------------------------------------------------------------------
    \23\ ``Strategy to Restore U.S. Leverage Against Iran,'' pp. 26-32.
---------------------------------------------------------------------------
    Though these steps are many, we must take the first ones now to 
prevent the further erosion of our stabilizing presence and leadership 
role in the Middle East. I thank you, Mr. Chairman, for my time, and I 
look forward to the Committee's questions.

    Senator Inhofe. Thank you for a very good statement, 
Ambassador Edelman.
    We have a quorum right now, so we're going to go and make 
sure to take care of some business that must be taken care of.
    Since a quorum is now present, I ask the committee to 
consider a list of 137 pending military nominations. All of 
these nominations have been before the committee the required 
length of time.
    Is there a motion in favor of the report, this list of 137 
pending military nominations?
    [The information referred to follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on December 14, 
                                 2017.
     1.  MG Anthony J. Cotton, USAF to be lieutenant general and 
Commander, and President, Air University (Reference No. 1113)
     2.  In the Army there is 1 appointment to the grade of major 
(Jennifer A. Mahoney) (Reference No. 1142)
     3.  In the Army there are 2 appointments to the grade of major 
(list begins with Yon T. Chung) (Reference No. 1143)
     4.  Col. Sharon A. Shaffer, USAF to be brigadier general 
(Reference No. 1220)
     5.  Col. Robert J. Marks, USAF to be brigadier general (Reference 
No. 1224)
     6.  In the Air Force there are 35 appointments to the grade of 
brigadier general (list begins with Ronald G. Allen, Jr.) (Reference 
No. 1228)
     7.  In the Navy there are 50 appointments to the grade of 
lieutenant commander (list begins with William L. Arnest) (Reference 
No. 1245)
     8.  MG Christopher G. Cavoli, USA to be lieutenant general and 
Commanding General, United States Army Europe (Reference No. 1263)
     9.  LTG Stephen J. Townsend, USA to be general and Commanding 
General, United States Army Training and Doctrine Command (Reference 
No. 1264)
    10.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Nathele J. Anderson) (Reference No. 1265)
    11.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Thomas W. Green) (Reference No. 1266)
    12.  In the Army there is 1 appointment to the grade of colonel 
(Adam R. Liberman) (Reference No. 1267)
    13.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Michael E. Steelman) (Reference No. 1268)
    14.  In the Army there is 1 appointment to the grade of major 
(Gerald D. Gangaram) (Reference No. 1269)
    15.  In the Army there is 1 appointment to the grade of major 
(Brian R. Johnson) (Reference No. 1270)
    16.  In the Army there are 18 appointments to the grade of colonel 
(list begins with Scott T. Ayers) (Reference No. 1271)
    17.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Peter J. Armstrong) (Reference No. 1272)
    18.  In the Army there is 1 appointment to the grade of colonel 
(Ali S. Zaza) (Reference No. 1273)
    19.  In the Army there is 1 appointment to the grade of major 
(Phillip T. Buckler) (Reference No. 1274)
    20.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Vernice K. Favor-Williams) (Reference No. 1275)
    21.  RADM Nancy A. Norton, USN to be vice admiral and Director, 
Defense Information Systems Agency/Commander, Joint Forces 
Headquarters-Department of Defense Information Network (Reference No. 
1281)
    22.  RADM Richard A. Brown, USN to be vice admiral and Commander, 
Naval Surface Forces/Commander, Naval Surface Force, United States 
Pacific Fleet (Reference No. 1282)
    23.  In the Air Force there is 1 appointment to the grade of major 
(Arianne R. Morrison) (Reference No. 1296)
    24.  In the Air Force there is 1 appointment to the grade of major 
(Richard A. Hanrahan) (Reference No. 1297)
    25.  In the Air Force there are 2 appointments to the grade of 
major (list begins with Aleck A. Brown) (Reference No. 1298)
    26.  In the Army there is 1 appointment to the grade of major 
(Heather M. Lee) (Reference No. 1300)
    27.  In the Navy there is 1 appointment to the grade of captain 
(Sharif H. Calfee) (Reference No. 1301)
    28.  Col. Mitchel Neurock, USAFR to be brigadier general (Reference 
No. 1314)
    29.  In the Air Force Reserve there are 5 appointments to the grade 
of major general (list begins with Hubert C. Hegtvedt) (Reference No. 
1315)
                                                                    
TOTAL: 137

    Senator Reed. So moved.
    Senator Inhofe. Is there a second?
    Senator Fischer. Second.
    Senator Inhofe. All in favor, say aye?
    [Chorus of ayes.]
    Senator Inhofe. The motion carries.
    Ambassador Jeffrey?
    We do business pretty fast when we have to.

   STATEMENT OF AMBASSADOR JAMES F. JEFFREY, PHILIP SOLONDZ 
DISTINGUISHED FELLOW, WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Ambassador Jeffrey. That was impressive, Senator.
    Mr. Chairman Inhofe, Ranking Member Reed, members of the 
committee, I thank you for having us here. It's a particular 
honor to have a panel of fellow Foreign Service officers 
appearing before the Senate Armed Services Committee. Thank you 
for honoring the service of all of our corps around the world.
    I also want to associate with Ambassador Edelman's comments 
about Senator McCain.
    It's a problem when one is a witness before this committee 
on this subject when you're the third person to go given that 
there is a great deal of agreement on the broad problem and to 
some degree the broad elements of a strategy.
    As you've already heard, we're dealing with a dual threat. 
Right now, I think for several reasons, Iran is the bigger of 
those dual threats, and I think this Administration in its 
October 13th statement has agreed with that.
    The reason is partially because, for the moment, the 
biggest threat emanating from the Sunni Islamic extremism, 
ISIS, has been at least conventionally defeated. But secondly, 
there is a real relationship between Iran's activities and 
Sunni Islamic extremism.
    When I left Iraq in June of 2012, what became ISIS, al 
Qaeda in Iraq under al Baghdadi, was little more than a 
terrorist band in West Mosul. Two years later, it was 
controlling a third of Syria and Iraq, 9 million people, with 
an army of 35,000--not entirely, because governance is always, 
as Ryan Crocker said, a huge issue. But bad governance was 
promulgated, encouraged, and exacerbated by Iran's decisions 
and the decisions of people who were being advised and 
supported by Iran, Maliki in Iraq and, of course, Assad in 
Syria. This back and forth--there are 20 to 25 million Sunni 
Arabs between Baghdad and Damascus. Currently, they're not 
being ruled by Sunni Arab leaders. They're being ruled by 
people who, in the case of Syria, take orders from Iran, in the 
case of Iraq may or may not fall under Iran's influence. If 
those people are not protected by the international system that 
we've talked about here, they're going to turn again to 
terrorist forces, and we'll have this same problem all over 
again.
    Given the general, I think, consensus on this, then the 
question is, including why it is important that Ambassador 
Edelman talked about, what to do about it. But before we get to 
what to do about it, or at least my view is, let's take a look 
at why haven't we figured this out.
    While I have a lot of problems with the Obama 
Administration's actions on Iran, I certainly don't think he 
wanted to turn the region over to Iran, yet Iran has been 
advancing. While this Administration has a very tough 
rhetorical position against Iran, it has done very little on 
the ground in the first nine or ten months to stop further 
Iranian successes, and we've got a series of them in the last 
several months, largely in reaction to mistakes by our allies.
    So why is it so hard? Several reasons. First of all, look 
at how Iran operates. It doesn't challenge conventionally like 
Saddam Hussein did, but rather it infiltrates other countries, 
playing off of bad governance, failed states, ungoverned areas, 
terrorist groups either they support or they use as an excuse 
to go in. They have people who know the region very well. They 
have a long-term strategy. It is all organized and supports 
each other--Lebanon, Yemen, Syria, Iraq, tomorrow Bahrain and 
Afghanistan.
    This requires a comprehensive response throughout the 
region with both us and our allies, because we're not going to 
do this with hundreds of thousands of troops. That gets to the 
problems with our allies, as we've seen in the last few months 
with the Turks--pick the subject--Massoud Barzani and the 
independence announcement; the Saudis--again, pick the issue--
Yemen, Hariri, or Qatar. They're all trying to contain Iran and 
deal with the terrorist threat in the region, but they're all 
doing it in an uncoordinated way that, more likely than not, 
advances Iran's objectives rather than contains them.
    We need to get hold of this, and we won't do so until we 
have a comprehensive plan to deal with Iran and we've convinced 
them that we are in the lead and we know what we're doing. 
We're not there yet.
    Secondly, anything we do to contain Iran, to push back, 
will bring with it great risks to us and to people in the 
region. Look at the 1980s and early 1990s when we faced four 
threats, from Soviets in Afghanistan, Iranians in Southern 
Iraq, Iranians in the Gulf, and Saddam in Kuwait. The kind of 
decisions we had to take and the chaos we deliberately created 
for the good end of containing these people was quite 
significant, and we have to be prepared.
    There's nothing easy about this. If this was easy, the U.S. 
Government in the last 15 years would have done better. It's 
very hard. We clearly cannot ignore the area. That's the lesson 
of 9/11. We clearly can't go in with hundreds of thousands of 
troops for a long time. That's the lesson of Iraq and 
Afghanistan. So we have to do economy-of-force, light-footprint 
operations with our allies.
    That will produce new Benghazis and new Nigers. I hate to 
say it. We've all been out there in the field. We know that 
sooner or later people make mistakes. We have to be able to 
move on and not melt down when these things happen because this 
is the right way to approach it.
    Finally, on Iran, again, I agree with Ambassador Edelman. 
Syria and also Iraq and our presence in these areas is very, 
very important. That is the central front in stopping Iran. 
That will be very difficult because it requires keeping our 
troops on and dealing with what will be unquestionably 
deliberate Iranian threats to our people. How will we respond? 
In the past, we have not responded in a way that deters Iran 
from going after us, in part because we have kept the Iranian 
homeland free from any retaliatory threats or action.
    On the JCPOA, as one who supported essentially the 
President's position publicly before he took it on 
decertifying, I would have to say cast it in doubt, do 
attrition warfare against the bad things in it, but if you want 
to contain Iran in the area, do not walk away from that thing. 
It's the best thing from an Iran standpoint that we could do to 
break up the coalition against it.
    I'll stop there, Mr. Chairman, and turn it over to my 
colleague and friend, Stu Jones.
    [The prepared statement of Ambassador Jeffrey follows:]

        Prepared Statement by Ambassador (Ret.) James F. Jeffrey
              instability greater than anytime since 1979
    Events over the past three months in the Middle East, from Kirkuk 
to Syria, Beirut to Sanaa, from Iranian surrogate missile strikes 
against key Saudi and Emirati targets, to Israel's increasingly 
dramatic attacks against Hezbollah and Iran in Syria, form a pattern, 
illustrating the breath of regional crises, Iran's facility in 
benefiting from them, and the absence of a guiding United States 
strategy that can mobilize our considerable diplomatic, military and 
economic assets.
    Since this committee last met on the issue of the Middle East, the 
region has seen momentous events. The United States has led an 
international coalition to success in the conventional war against ISIS 
in Iraq and Syria. Meanwhile, Iran, aided by Russia, has turned the 
tide in the Syrian civil war decisively in favor of the criminal Assad 
Regime. Finally, President Trump announced a new Iran policy October 
13.
    Yet the region is less secure, and the United States-led regional 
security order more endangered, than any time since 1979. The reason is 
that while one threat, Sunni Islamic terror, has been temporarily 
defeated in Syria and Iraq, and contained elsewhere, the more strategic 
threat, Iran, is growing rapidly, to some degree abetted by Russia. 
These two threats are organically linked; Iran benefits from ungoverned 
territories overrun by Islamic terrorists, from Yemen to Syria, and 
justifies its aggression as `counter-terrorism.' Meanwhile, when 
America fails to contain Iran, Sunni populations embrace groups like 
ISIS and al Qaeda for self-protection.
    President Trump's October 13 policy announcement on Iran, despite 
much mention of the Iran JCPOA nuclear deal, wisely set the first 
American priority as countering Iran's destabilizing activity 
throughout the region. Along with the President's commitment to a 
Palestinian-Israeli accord, and the fight against al Qaeda, Taliban and 
ISIS terrorists throughout the region, we have the outlines of a new 
regional policy, built on our success against ISIS, based on local 
partners, diplomatic mobilization and limited but decisive military 
power. Yet so far that policy has not spelled out how, specifically, we 
will contain Iran, nor reassured our regional partners.
    But Iran, enabled by Russia, does has a detailed plan for the 
region; the Prime Minister Hariri fiasco in Lebanon, death of former 
Lebanese President Saleh, missile attacks on Riyadh, threats to Israel 
out of Syria and Lebanon, and the crushing of the Iraqi Kurdish 
independence effort, all bear Iran's fingerprints directly or 
indirectly. Absent a detailed game plan made-in-Washington, and 
successes implementing it, our partners are ``winging it'' in 
uncoordinated ways which Iran then exploits to further expand its 
gains. The risk is great that one or another such incident will explode 
into a regional conflict, if we do not quickly coordinate with our 
partners and explain our plan to contain Iran.
                  region's importance, and u.s. assets
    Any United States plan has to start with basics--the importance of 
the region to the security and well-being of Eurasia, a core United 
States goal since 1917. The Middle East is an essential unifying 
component of Eurasia, the source of many of the world's conflicts since 
1947, and a key element in the United States-led global security 
system. Failure to resolve conflicts there affects our domestic 
security and allies' very stability, as we have seen with terrorist 
attacks on our homeland and Western Europe, destabilizing refugee flows 
out of Syria, and WMD threats. In addition, the region's energy 
supplies still remain critical for global economic health.
    With the demise of ISIS, the main threat to the United States-led 
order is clearly Iran. But Iran's threat is, in Henry Kissinger's 
words, both as a state--pressing its hegemonic ambitions, and as a 
revolutionary, theocratic cause. This latter dimension stimulates the 
other great regional threat--Sunni extremist violence. I was witness to 
the rise of ISIS from a minor al Qaeda band in Mosul in 2012 to a major 
regional force by 2014 due to the oppression of Sunni Arabs by Iranian 
surrogates, Maliki in Iraq, and Assad in Syria. While ISIS is now 
largely defeated in the Levant, we risk a repeat of 2012-2014.
    Any U.S. plan can draw on significant assets. Most of the states in 
the region are our security partners, with a huge conventional 
superiority, along with CENTCOM, over Iran, even with Russian support. 
The vast majority of oil exports from the region come from United 
States partners. Iran despite its claims as an Islamic revolutionary 
force can mobilize local allies mainly from the Shiite Muslim 15% of 
the region's population, and in some places such as Iraq many Shiite 
are uneasy at Iranian encroachment. By supporting the genocidal Assad 
regime including its chemical weapons use, and provoking massive 
refugee flows into, and terrorist attacks on, Syria's neighbors and 
Europe, Iran and Russia have lost any moral argument.
                           immediate actions
    Any United States plan should start by analyzing Iran's strategy. 
That strategy, to avoid responsibility and retaliation while advancing 
its cause in states where governance is weak, focuses on local 
surrogates, more loyal to Teheran than to their own countries. It also 
exploits instability, confident that the United States, European allies 
and even some in the region prefer short-term stability to effective 
countering of Iran's exploitation of weak governments and conflicts. 
The United States thus needs to build up the region's nation states and 
react quickly to governance failures that provoke terrorism and open 
the door to Iranian intervention.
    Any detailed policy on Iran also should answer six questions: 1. 
What are the basic goals of the policy; 2. What to do now with the 
central front, Iraq and Syria; 3. How to mobilize allies; 4. What is 
the Role of JCPOA; 5. What response when Iran strikes back; 6. Whether 
and how to communicate with Teheran. My suggestions on each follow:

     1.  The United States should neither strive for regime change nor 
portray the Iranian challenge in Shiite-Sunni terms. Either approach 
will force Iran to mobilize even more, undercut potential partners 
including Turkey and Europe, and allow Russia to champion Teheran and 
Shiite Muslims. Rather, emphasis should be on rolling back Iran's 
malignant efforts to undermine and ultimately capture states.

     2.  The two key fronts are Iraq and Syria, which should be 
considered, as Iran does, as one theater, but with different 
approaches. In Iraq we have a relatively friendly government with Prime 
Minister Abadi, deep ties with much of the population, and considerable 
anti-Iranian sentiment including among some Iraqi Shiite clerics. The 
United States should lead the international effort to integrate Iraq 
back into the regional and global community, including with 
reconstruction and energy sector assistance. The United States should 
also press for a continued United States military training presence, to 
prevent a resurgence of ISIS and ensure Iraq is not dependent on Iran 
for military support. The goal should not be Iraq as a Middle Eastern 
West Berlin, which is not feasible, but rather a Finland, which does 
not allow either Iran or the United States to project power out of it. 
The Iraqi government, egged on by Iran, should not be permitted to 
`cherry pick' relations with us, enjoying our economic and diplomatic 
support while acquiescing in Iran's subversion and military moves.

         In Syria, Secretary's Mattis' announcement that United States 
troops would stay on, to counter a possible return of ISIS, build up 
local counter-terrorism allies, and contribute to the Geneva process, 
is important. The United States cannot dictate events in Syria, but by 
its presence can contest Iran's (and Russia's) freedom of action. Aside 
from United States enclaves and local allies in the north and south, 
United States allies Israel and Turkey also operate militarily in 
Syria, and have a similar core goal of containing Iran, although 
differences on tactics, particularly with Turkey, are formidable. UN 
Security Council Resolution 2254 gives the United States and the region 
a legal justification for a say in any Syrian internal political 
organization, given the horrific impact of the Syrian civil war not 
only on the Syrian people but the region. Syria also desperately needs 
reconstruction, and this gives the United States and its European 
allies leverage with Syria and its supporters. Pulling all these assets 
together to contain Iran in Syria is a dynamic, uncertain endeavor, but 
far less risky than abandoning Syria once again.

     3.  Various regional partners and European allies are concerned 
about Iran, but absent a common United States led plan their responses 
have been ill-coordinated and contradictory. Clarity on United States 
plans and goals and particularly success against Iran will help 
mobilize allies, but the United States must discipline the system and 
overwatch partners constantly. The price they pay for U.S. leadership 
has to be coordination with Washington before acting.

     4.  Absent compelling evidence that the international community as 
in 2012 will rally behind the U.S. to impose draconian oil sanctions on 
Iran, the United States should not pull out of the JCPOA. United States 
sanctions without international cooperation would have little impact on 
Iran, but would give Iran an excuse under JCPOA article 36 to violate 
some of its commitments and thus move closer to a nuclear weapons 
breakout, while the world blames the U.S. The President's policy of 
keeping the agreement in limbo, criticizing its flaws, especially 
missile activity and the sunset clauses, and discouraging business 
deals with Iran, is sensible.

     5.  Bitter experience over decades with Iran demonstrates it 
responds violently when challenged, but in ways that make its 
responsibility unclear. The United States needs to know, and 
communicate, how it will respond, including the possibility of 
retaliation directly against Iran, if it wants to deter Iranian 
attacks.

     6.  Opposing a foe does not exclude communicating with it. But 
until the United States is clear on its own plans, has won partners' 
trust, and scored successes, communication with Iran should be limited 
to signaling red lines and deconflicting as in the Gulf. Eventually 
however the United States would need to clarify to Iran what United 
States goals are.

    It is not too late for the U.S. to lead a return to regional 
stability and relative calm, but mistakes by successive administrations 
and the region's own weakness have contributed to a dangerous 
situation. The United States should ensure that everything it does in 
the region discourages, not encourages, Iran. That has not always been 
the case.

    Senator Inhofe. Very good, Ambassador Jeffrey. Thank you.
    Ambassador Jones?

 STATEMENT OF AMBASSADOR STUART E. JONES, VICE PRESIDENT, THE 
                          COHEN GROUP

    Ambassador Jones. Thank you.
    Senator Inhofe. Use your mic, please.
    Ambassador Jones. Thank you, Chairman Inhofe, Ranking 
Member Reed. It's an honor to be here before you, and it's a 
distinct honor to be here with such distinguished colleagues.
    I'm also thinking of Chairman McCain today and wishing him 
a speedy recovery.
    Chairman Inhofe, as you said, last week Prime Minister 
Abadi announced the defeat of ISIS in Iraq, and I had the 
privilege to work closely with Prime Minister Abadi during my 
time in Iraq, and he's been tireless in his service to his 
nation and a reliable partner for the United States. He 
deserves our commendation for leading Iraq through a difficult 
three-year struggle and for reaching this watershed moment.
    The fight against ISIS has been the organizing principle 
for our Middle East policy for the past three years, and we've 
known that the day would come when ISIS would be defeated, at 
least as a military opponent, and we would need to reassess 
policy priorities to build on this success.
    Today, Iraq enjoys unprecedented low levels of violence, 
and Prime Minister Abadi is seen by Sunni and Shiite alike as a 
unifying force. Continued oil production growth and 
improvements in the oil export infrastructure, stabilization of 
oil prices, and support from the World Bank and the IMF have 
enabled the Iraqis to contemplate a prosperous economic future. 
Iraq will, of course, however, continue to face significant 
challenges.
    As my colleagues have said, I think one of the main 
challenges will be the malign interference of Iran, its 
neighbor with a 1,400-kilometer border. While ISIS? terrorist 
ground forces are defeated, we know that extremists will go 
underground and continue to terrorize Iraq's innocent 
civilians, especially in urban areas such as Baghdad. The Iraqi 
security forces will need our continued assistance to combat 
this threat, and the government of Iraq has invited a limited 
number of United States forces to remain to provide training 
and other support to assist them in their efforts to combat 
extremism. Helping Iraq's counter-terrorism service 
reconstitute to face this new challenge is a mission that 
United States forces are uniquely positioned to accomplish.
    So as I said, with the ISIS threat destroyed, malign 
Iranian interference is now the primary security challenge 
facing the region. Iran's activities threaten the security of 
our strongest ally in the region, Israel, but also threaten 
Jordan, a crucial partner, where I had the privilege to serve, 
as well as our Gulf partners.
    Iranian interference has posed a challenge to Iraqi 
stability for some time, and it is now at its highest levels. 
Prime Minister Abadi has committed to integrating the popular 
mobilization forces, some with close ties to the Iran Quds 
Force, into the national security forces, with the requirement 
that they leave their political baggage behind them. This will 
be a huge task, and he will need our support for this.
    The United States Administration is developing a strategy 
to push back and contain Iran throughout the entire region. 
This pushback needs to be a whole-of-government approach. In 
Iraq in particular, we need to go beyond the security support 
and remind the Iraqi public of the full benefit of the 
strategic framework agreement with the United States, which two 
of my co-panelists played an instrumental role in drafting.
    Iraq has a large youth population, and from my time there I 
can say that Iraqi youth yearn for United States technology, 
United States investment, United States training and education. 
General Electric Power Up program, which was initiated during 
my time in Iraq, has provided thousands of megawatts of needed 
electricity but also introduced cutting-edge technology, 
created hundreds of high-paying jobs, and afforded training 
that will transform those young workers' lives.
    Likewise at this moment, U.S. energy firms are developing 
proposals to assist Iraq in capturing flared gas. The 
comprehensive solution to this problem, which Prime Minister 
Abadi has prioritized for 2018, would not only address an 
environmental calamity but also restore billions of dollars to 
the Iraqi economy in a short period of time.
    For these measures to succeed, however, we must ensure that 
United States export promotion agencies are fully operational 
and targeted at the problem set in the Middle East, much as 
they were in the Bush Administration.
    To his credit, Prime Minister Abadi has also launched a war 
on corruption. The public response to this announcement has 
been positive, and a war on corruption will be a blessing for 
United States-Iraqi Strategic Framework Agreement because the 
intrinsic value of the U.S. partnership becomes clearer on a 
fair and transparent playing field.
    In our pushback against Iran, we should also continue to 
foster Iraq's ties to its other neighbors. Saudi Arabia's 
Foreign Minister Jubeir's visit to Baghdad in February, 
encouraged by Secretary Tillerson, was a game changer. Since 
then we have seen numerous high-level visits back and forth, 
and road and air links opened, the latter for the first time 
since 1990. The next step should be to encourage further 
progress on expanding and securing the highway between Amman 
and Baghdad.
    Finally, the September referendum on Kurdish independence 
has had disastrous consequences for the Kurds and for the 
cooperation that had emerged between Baghdad and Erbil during 
the Mosul campaign. Although we opposed the referendum, we 
should now support restored cooperation between Erbil and 
Baghdad. It is often said that the Kurds provide the essential 
third leg to the Iraqi stool. Following the referendum, Prime 
Minister Abadi did what was needed, but now he's in a position 
to work towards reconciliation, and this rift needs to be 
repaired ahead of the 2018 elections in May so that the Kurds 
will participate fully in national politics.
    So again, thank you for allowing me to join this 
distinguished group and to be before you today.
    [The prepared statement of Ambassador Jones follows:]

             Prepared Statement by Ambassador Stuart Jones
    Chairman McCain, Ranking Member Reed,
    First let me thank you for this invitation to testify before this 
Committee today. While we have spent a significant amount of time 
together it's the first time I have testified before this Committee and 
I am honored for the opportunity and I am equally humbled to be seated 
with this distinguished panel.
    As we all heard, last week Iraqi Prime Minister Abadi announced the 
defeat of ISIS in Iraq. I had the privilege to work closely with the 
Prime Minister during my time in Baghdad. He has been tireless in 
service to his nation and a reliable partner for the United States. He 
deserves our commendation for leading Iraq through a difficult three-
year struggle and reaching this watershed moment.
    This victory was achieved by the Iraqi Armed Forces, but would not 
have been possible without the essential support of the Combined Joint 
Task Force for Iraq. We should also recognize the extraordinary 
military leadership of CJTF Commanders, LTG James Terry, LTG Sean 
MacFarland, LTG Steve Townsend and now LTG Paul Funk.
    Again, I had the honor to work with all of these exceptional 
military leaders and their teams. They have done far more than defeat 
ISIS. Through their train and equip mission, they have restored the 
confidence of the Iraqi security forces; saved countless lives from the 
barbaric predations of ISIS; and facilitated the return of more than 
2.7 million displaced persons to their homes.
    The fight against ISIS has been the organizing principle for our 
Middle East policy for the past three years. We have known that the day 
would come when ISIS would be defeated and we would need to reassess 
policy priorities to build on this success. We are now at that point 
and the President must decide what United States foreign policy in the 
Middle East will look like going forward.
    Today Iraq enjoys unprecedented low levels of violence and Prime 
Minister Abadi is seen by Sunni and Shi'a alike as a unifying force. 
Continued oil production, growth and improvements in the oil export 
infrastructure; stabilization of oil prices and support from the World 
Bank and the IMF have enabled the Iraqis to contemplate a prosperous 
economic future. Iraq will, however, continue to face enormous 
challenges.
    While ISIS, the terrorist ground force, is defeated we know that 
extremists will go underground and continue to terrorize Iraq's 
innocent civilians, especially in urban areas such as Baghdad. The 
Iraqi Security Forces will need our continued assistance to combat this 
threat.
    The Government of Iraq has invited a limited number of United 
States forces to remain to provide training and other support to assist 
them in their efforts to combat extremism. Helping Iraq's Counter
    Terrorism Service reconstitute to face this new challenge is a 
mission that United States forces are uniquely positioned to 
accomplish.
    With the ISIS threat destroyed, malign Iranian interference, is now 
the primary security challenge facing the region. Iran's activities 
threaten the security of our strongest ally in the region, Israel, but 
also threaten Jordan, a crucial partner where I had the privilege to 
serve--as well as our Gulf partners.
    Iranian interference has posed a challenge to Iraqi stability for 
some time and it is now at its highest levels. Prime Minister Abadi has 
committed to integrating the Popular Mobilization Forces, some with 
close ties to the Iranian Qods Force, into the national security 
forces, with the requirement that they leave their political baggage 
behind them. This will be a huge task and he will need our support.
    The United States Administration is developing a strategy to push 
back and contain Iran throughout the entire region. This pushback needs 
to be a whole of government approach. In Iraq, in particular, we need 
to go beyond security support and remind the Iraqi public of the full 
benefit of their Strategic Framework Agreement with the United States.
    Iraq has a large youth population. From my time there I can say 
that Iraqi youth yearn for United States technology, United States 
investment, United States training and education. The General Electric 
Power Up program, which was initiated during my time in Iraq, has 
provided thousands of Megawatts of needed electricity, but also 
introduced cutting edge technology, created hundreds of high paying 
jobs and afforded training that will transform those young workers' 
lives forever.
    Likewise, at this moment, United States energy firms are developing 
proposals to assist Iraq in capturing its flared gas. A comprehensive 
solution to this problem - which Prime Minister Abadi has prioritized 
for 2018--would not only address an environmental calamity but also 
restore billions of dollars to the Iraqi economy in a short period of 
time. For these measures to fully succeed, however, we must ensure that 
United States export promotion agencies are fully operational and 
targeted at the problem set in the Middle East.
    To his credit, PM Abadi has also launched a `war' on corruption. 
The public response to his announcements has been positive. A war on 
corruption will be a blessing for the United States Iraqi Strategic 
Framework Agreement because the intrinsic value of the United States 
partnership becomes clearer on a fair and transparent playing field.
    In our pushback against Iran, we should also continue to help 
foster Iraq's ties to its other neighbors. Saudi Foreign Minister 
Jubeir's visit to Baghdad in February, encouraged by Secretary 
Tillerson, was a game changer. Since then we have seen numerous high 
level visits back and forth and road and air links opened, the latter 
for the first time since 1990. The next step should be to encourage 
further progress on expanding and securing the highway between Amman 
and Baghdad.
    Finally, the September referendum on Kurdish independence has had 
disastrous consequences for the Kurds and for the cooperation that had 
emerged between Baghdad and Erbil during the
    Mosul campaign. Although we opposed the referendum, we should now 
support restored cooperation between Erbil and Baghdad. It is often 
said in Iraq that the Kurds provide the needed third leg of the Iraqi 
stool.
    Following the referendum, Prime Minister Abadi did what was needed. 
Now he is in a position to work towards reconciliation. This rift needs 
to be repaired ahead of the May 2018 elections, so that the Kurds may 
participate fully in national politics.
    Chairman McCain, Ranking Member Reed, I want to thank you, again 
for this opportunity and for your consistent leadership on these 
issues. I always value your insight and I look forward to taking your 
questions.

    Senator Inhofe. Thank you very much, Ambassador Jones, for 
that statement.
    I was thinking, Ambassador Crocker--we'll go with five-
minute rounds. Is that all right with you? Try to get as many 
people. It's a well-attended meeting here.
    When you made the statement, we agree with you on some of 
the cuts that are going to be necessary. But on this committee, 
we sit and we look at a situation where only a third of our 
Army ground brigades can fight, we see only a fourth of our 
Army air brigades. We're very sensitive, and we've heard over 
and over again that the Marines use the F-18, and the F-18s 
right now, 62 percent of them won't fly, so we have to do 
things.
    When there's a drawback on Armed Services, this happens, 
it's real. So somewhere, it has to give. I want to ask for a 
response, but that's one of the things that concerns all of us 
here.
    Let me just put this in context. We're all alarmed to see 
how Iranian influence has grown in Iraq since our premature 
withdrawal in 2011. Despite losing more than 4,500 American 
lives and spending more than $1 trillion in Iraq since 2003, 
our hasty, I felt, ill-thought-out troop withdrawal opened the 
door to Iran to accomplish its strategic objectives in Iraq. 
Iran has been remarkably successful in pursuing those 
objectives.
    It's not like we didn't see this coming. I and a lot of 
members of this committee warned for years that the hasty 
withdrawal from Iraq would lead to an increase of Iranian 
influence there. I had one of my own quotes down here. It was 
August of 2010 when I made the statement, ``Obama's rush for an 
expedited withdrawal of troops from Iraq would endanger Israel 
and the entire Middle East and would empower Iran.''
    So what I'd like to do is kind of--you've all touched on 
this, but a response from all four of you. Many people are 
unaware of the extent of the influence of Iran that it now 
holds in Iraq. Can each of you broadly lay out Iran's strategic 
objectives there and discuss how Iran has advanced them since 
the United States withdrawal?
    Let's start with you, Ambassador Crocker.
    Ambassador Crocker. Thank you, Mr. Chairman.
    Nature abhors a vacuum, and the Middle East abhors it even 
more. When I left in 2009, violence in Iraq was at an absolute 
minimum. The Iranians were on their back feet. Prime Minister 
al Maliki had moved against one of their clients, principal 
clients in Iraq, the Sadr movement, engaged them militarily 
from Basra all the way up to Sadr City, and with significant 
help from us, he beat them back.
    However, you do not end a war by withdrawing your troops 
from the battlefield. You simply cede the space to adversaries 
who have more commitment and more patience, and that's exactly 
what we've seen, I think, in Iraq with the presence now of a 
number of Shiite militia backed by Iran, well-armed, looking 
for a new mission after Islamic State. They take their orders 
from Tehran, not from Baghdad.
    A fundamental understanding we should all have is Iran's 
history and its geopolitical assessments. The Shah of Iran 
projected force beyond his borders with conventional forces. It 
was the Shah's Iran that seized the three islands from United 
Arab Emirates. It was the Shah's Iran that sent basically a 
mechanized infantry brigade into Oman to help the Sultan put 
down a rebellion.
    The Islamic Republic is doing the same thing with different 
means, using militias rather than regular forces under the 
command of Qasem Soleimani, and we now see a resurgent Iran in 
the region. The only way I can see us gaining back some of that 
ground is not by confronting Iran directly in Iraq. Sadly, they 
have more instruments there than we do. But it would be by a 
sustained engagement with the Iraqi government, with Prime 
Minister Abadi, to do everything we can to build up a stronger 
central authority. It will be a long-term commitment. It does 
not take forces. It does take consistent, focused, White House-
led political engagement. I hope we see that.
    Senator Inhofe. Ambassador Edelman, any comments on this?
    Ambassador Edelman. Yes. I would speak, Chairman Inhofe, 
with some trepidation sitting here on a panel of three former 
ambassadors to Iraq about Iranian strategic goals there. So let 
me, if you'll permit me, to kind of open the aperture a little 
more broadly and speak more broadly about it.
    One of the things I think we neglect at our peril is to 
recognize that Iran remains a revolutionary regime committed to 
the spread of its particular ideology and emerging as a leader 
in the Muslim world despite the fact that it represents a 
minority, a current minority sect inside world Islam, and that 
I think explains a lot of its behavior. I mean, for years, 
since the revolution in 1979, a lot of us have been waiting for 
the Thermidorian reaction that would allow Iran to pursue a 
Shiite political ideology in one country, to make an analogy 
from the history of the Russian revolution, and it hasn't 
happened.
    It remains committed, at least the leadership and the 
regime remains committed, if not the public, to this particular 
ideology, and that drives them to use these proxy forces that 
they started using in the early 1980s, almost immediately after 
the revolution, in Lebanon and now in Iraq and Syria and 
elsewhere, to extend their influence to allow them to become 
the dominant force in the region.
    Senator Inhofe. Okay. Well, thank you. My time has expired, 
but if we do a second round, I'd like to have you both, 
Ambassador Jeffrey and Ambassador Jones, to be thinking about 
this.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Just a quick follow-on. Ambassador Crocker, you were there 
on the ground in 2008, I believe, when President Bush signed an 
agreement with Maliki to withdraw all our forces in 2011. Was 
your advice to do that, or is that just--why did we do that? I 
mean, we agreed to take all our troops out; correct?
    Ambassador Crocker. Thank you, Senator Reed. Yes, I was the 
senior negotiator for that agreement, as well as its 
accompanying security agreement. We pushed hard for more open-
ended language. Prime Minister Maliki told me an important 
point. He said, ``Look, we're going to need you here for years, 
if not decades, but that has to work in an Iraqi context. 
Iraqis, including those opposed to the Prime Minister, need to 
hear, at that particular point, that there would be a finite 
limit on how long the U.S. would stay. Put the emotions aside, 
then let's get working on negotiating the longer-term 
agreement.''
    That didn't happen, and I would suggest that it didn't 
happen because, again, President Obama had run on, in part, a 
position to end the wars of the previous administration. Again, 
as I said and as we've seen, you don't end wars just by 
withdrawing your forces. There was a clear understanding at the 
time that our presence would be enduring.
    Senator Reed. But there has always been a question about 
whether Maliki was entirely sincere about his wishes or his 
ability to deliver it, given the Iranian influence. That was a 
factor, I think, all through that period.
    Ambassador Jeffrey. Senator Reed, could I add something to 
that?
    Senator Reed. Please.
    Ambassador Jeffrey. I was, unfortunately, the guy who lost 
the American troop presence, as you all know, in 2011.
    Senator Reed. Right.
    Ambassador Jeffrey. First of all, it's very difficult to 
keep American ground troops in any Middle Eastern country--the 
only place where we have a significant number is Kuwait; think 
of Kuwait and why that's so--over time when there isn't an 
emergency situation. Also, we needed a status of forces 
agreement. Maliki was willing in 2011 to sign a piece of paper. 
He or his foreign minister, I guess, signed it in 2014 when we 
came back in because it was an emergency situation and we 
didn't worry too much about that. But in a peacetime situation, 
it's very hard to put troops on the ground in a place like that 
without the guarantees.
    But the relevance of that experience in 2011 for what we're 
doing now in Syria, in Iraq and elsewhere, I would say is as 
follows. We had--and Stu Jones was my deputy as we prepared for 
this, so I'll share the blame with you. We had a Plan B that we 
were going to cheat, with Maliki's acknowledgement, on all of 
the keeping troops out. We had Black SOF [Special Operations 
Forces], White SOF, we had drones, we had all kinds of things. 
I don't want to get into them in great detail. It was a very 
big package, including a $14 billion FMS [Foreign Military 
Sales] program. We had bases all over the country that were 
disguised bases that the U.S. military was running.
    What happened was the Obama Administration--not just the 
President, who knew about this plan, but the entire 
bureaucracy--loses interest in that kind of deployment because 
you don't have a four-star General Petraeus, General Austin to 
talk to the Secretary of Defense and directly to the President. 
You don't have the focus of the American people once they're 
gone. Maliki kept coming back and asking for this little 
military asset or that little military asset. We were his 
security blanket. We left, so he had to turn to the Iranians.
    The second big mistake was in 2014, when we responded to 
the fall of Mosul by taking a decision to send at least some 
troops back in and support the effort, but we did not do air 
strikes for three months, until finally in the north we had the 
problem with the Kurds in Sinjar Mountain and the folks up 
there. We did that for, I think, good reason. We were trying to 
squeeze Maliki out.
    But the fact that the Iranians did come to the aid of the 
Iraqis and we did not played a huge role in the position 
they're in today.
    So again, they take advantage, as you've heard from my 
colleagues, of mistakes that we or our local allies make.
    Senator Reed. My time is running out. This is a topic of 
not just Iraq but of other areas. So I hope if there's a second 
round we can shift focus to Syria and you can explain to me our 
policy there. Thank you.
    Senator Inhofe. Thank you.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Ambassador Crocker, this week Putin claimed victory in 
Syria. He announced the supposed withdrawal of Russian troops 
from the country. He presided over the signing of a $21 billion 
plan to build a nuclear power plant in Egypt, and he condemned 
United States efforts in the region as destabilizing. I think 
it's pretty clear that the Russians are working to increase 
their role in the Middle East and undermine United States 
interests.
    But looking outside of Syria, where do you think their next 
targets in this effort are going to be?
    Ambassador Crocker. That's a great question, Senator. I am 
not an expert on Russian affairs, but that won't stop me from 
pontificating.
    [Laughter.]
    Ambassador Crocker. My colleagues who are will straighten 
that out, I'm sure, for the record.
    The Russians under Putin played a bad hand brilliantly. The 
Russians intervened in Syria not because they saw an 
opportunity but because they saw a very real threat that they 
were going to lose basically their only asset in the region, 
Bashar al Assad. They teamed up with the Iranians, and we see 
where they got. Incidentally, at the same time he declared 
victory and said he was bringing the troops home, he also 
announced that there would be a permanent Russian presence both 
in Tartus, the navy base, and at an air base in Syria, so 
they're not going away. They will continue to use Syria as a 
point of leverage for their broader strategies in the region.
    I don't know if they have a next move planned in the 
region. I think it's entirely possible that for the time being, 
they're going to sit where they are because it's a good place.
    Senator Fischer. Do you think--I'm going to interrupt you 
for a minute. Do you think they're just looking for 
opportunities, then, that there is no comprehensive plan?
    Ambassador Crocker. Well, what I believe is that, again, 
like Iran, you need to know the history and how the world looks 
from that other capital. In the case of Russia, no, it's not a 
return to the Soviet Union, clearly, but it looks a little bit 
like the return of the Russian Empire. I think that is the 
motivating spirit for President Putin, and I would expect to 
see their next move not in the Middle East, probably in Europe.
    Senator Fischer. Thank you.
    Yes?
    Ambassador Edelman. Senator Fischer, if I might, because I 
think I'm the only one up here who had a misspent youth in 
Soviet affairs, I think you touched on the right thing. I think 
President Putin is actually a tactical virtuoso, but I don't 
think he has a real strategic plan here.
    But what I think you see in Syria is the Russians taking 
advantage of a long-time client relationship. They look for 
opportunities. I think the fact that they're looking at Egypt, 
another place where they've had a long-term relationship, 
suggests they may be looking for opportunities there, and 
they're certainly looking for opportunities in Turkey, where 
Ambassador Jeffrey and I both served, which is not a place that 
they've traditionally had strong relations but where they see 
the worsening United States-Turkish relationship as opening an 
opportunity for them.
    Senator Fischer. Any other comments?
    [No response.]
    Senator Fischer. I would ask all four of you what do you 
believe the United States' response should be?
    Ambassador Jones?
    Ambassador Jones. Thank you. I would just say that in Syria 
we do have to cooperate with the Russians. I think that the de-
confliction zones that have been established in southwestern 
Syria are having an effect, and I think they create a positive 
model for future cooperation. I also think that this holds the 
Russians to a certain standard of behavior and also highlights 
their responsibility to deliver the performance of their 
Iranian and Hezbollah partners inside of Syria. I think we need 
to also hold them to their commitment to the Geneva process in 
Syria.
    So by taking this leadership role in Syria, I think the 
Russians have obligated themselves, and we need to hold them to 
those obligations in a very public fashion.
    I think in the rest of the region, I think we need to 
continue to show the value proposition of the United States 
partnership. Russia doesn't bring anything to Egypt that Egypt 
really needs. Russia doesn't bring anything to Libya that Libya 
really needs. We will expect Putin to seek opportunities there 
for domestic fulfillment, but I think we need to show steadily 
our strategic partnership to these countries and show that we 
can offer solutions.
    Senator Fischer. How do we hold Russia to obligations when 
they violate arms treaties?
    My time has expired. Thank you, Mr. Chairman.
    Senator Inhofe. That's a good question.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Mr. Edelman, a question for the record. You made a couple 
of assertions that are inconsistent with the information I've 
had as a member of this committee and the Intelligence 
Committee, and I'd like you to supply the evidence. One is that 
the JCPOA is ``freeing up resources for other malign 
activities.'' My understanding is that may be true in a very 
minor way, but if you have evidence on that, I would appreciate 
having it. This is for the record, you don't need to respond 
now.
    The second is you cited serial violations by the Iranians. 
That is also inconsistent with the information that I have. So 
I would like whatever data or evidence you have of that.
    Finally on this point, I would ask if you believe that a 
nuclear armed Iran, in virtually the identical situation of 
North Korea today, would be a positive for the stability and 
strategic balance in the Middle East. That's a yes or no 
question.
    Ambassador Edelman. No, I don't think it would be positive.
    Senator King. Thank you.
    I'm astonished that none of the four of you mentioned in 
your discussions, which is a hearing on the Middle East, the 
President's recent decision about recognizing Jerusalem as the 
capital of Israel and moving our embassy. I don't see how you 
can ignore one of the most significant decisions in terms of 
the Middle East, and I wondered--I guess I'll start with you, 
Mr. Jones, Ambassador Jones. Given the fact that apparently we 
got nothing for that in terms of concessions by the Israelis on 
settlements or anything else, do you think that was a positive 
move in terms of stability in the Middle East?
    Ambassador Jones. No, Senator, I don't. What I'm concerned 
about now, I think we've seen initial reactions to this. 
Frankly, the reaction has been a little bit more muted than 
many experts expected. But we'll also now start to see second- 
and third-order consequences, and this is going to have 
negative effects on governance inside of Jordan and Lebanon and 
other places which have large Palestinian populations. So I am 
concerned about King Abdullah in Jordan, who has made very 
clear his opposition to this, who I had the honor to serve with 
very closely. The Jordanians are concerned.
    Senator King. My understanding is that just this morning 
Turkey has announced the establishment of an embassy in the 
West Bank, recognizing the Palestinian state. I guess any of 
you--Mr. Jeffrey, is a two-state solution an important part of 
the peace process in the Middle East?
    Ambassador Jeffrey. The two-state solution is a very 
important part of the situation between Israel and the 
Palestinians, and everybody who has looked at this, almost 
everybody who has looked at this has not been able to come up 
with an alternative given Israel's commitment to a democratic 
political system, given the demographics.
    In terms of the President's decision, again, as I mentioned 
with the JCPOA, any action taken that makes Iran happy in the 
region is a mistake, and this made Iran happy, thus it's a 
mistake. If this is the biggest mistake this administration 
makes in the Middle East, it will be okay because I don't think 
the ramifications of it are all that strong because right now 
the region is focused primarily on Iran, and that includes most 
Arab states, and secondarily on the terrorist threat, where 
Israel is extraordinarily effective with both Egypt and Jordan.
    Senator King. Isn't it more difficult, though, to achieve a 
two-state solution?
    Ambassador Jeffrey. I think the two-state solution at the 
moment is moribund both from the standpoint of the Palestinians 
and from the standpoint of the current Israeli government. So I 
don't think we stopped something that otherwise would have 
given us a major win in the region. I mean, I've been through 
this, as have my colleagues, with the Annapolis Process in the 
Bush Administration, obviously with Obama's effort in the first 
term, Kerry's effort in the second term. We can go back to 
Clinton and Camp David, and again and again, we haven't gotten 
there. The region and our influence in it has continued.
    Senator King. I agree with your statement that we haven't 
gotten there, but nobody has come up with an alternative for 
solving this problem that would maintain Israel as a democratic 
Jewish state.
    Ambassador Jeffrey. Exactly, and thus, it's on my list of 
to-do things, but it's not at the top of it.
    Senator King. Other thoughts on the issue of moving the 
capital? Ambassador Crocker?
    Ambassador Crocker. Senator, I think it's too early to tell 
what the significance is. The immediate reaction that we 
focused on, as Ambassador Jones said, was it's going to create 
an explosion of violence in the region. It didn't. The climate 
is not really right for that right now, for a lot of complex 
reasons. That doesn't mean it isn't going to have a long-term 
impact. I think it will, I just don't know what that will be. 
There are now voices in the Arab world saying, right, no more 
two-state solution, so let's push for a one-state solution in 
which all of the citizens of that state have equal rights under 
law, including the right to serve in the military.
    Again, I don't know where this is going, but it's going to 
play out over a longer term and I fear not in any positive way.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Cotton?
    Senator Cotton. Thank you, gentlemen, for your appearance 
on this incredibly distinguished panel. I respect and thank you 
all for your service to our country abroad and in many places 
that don't appear on top tourist destinations.
    I'll follow up on both points that Senator King made. 
Ambassador Edelman, I'll give you a yes-or-no question as well. 
Would it be a positive development for the Middle East for Iran 
to develop nuclear weapons in 8 to 13 years when the key 
provisions of the JCPOA expire, when its economy has grown 
stronger because sanctions are lifted, when its conventional 
military is stronger because the conventional arms embargo is 
lifted in 2020? That can also be a yes-or-no question.
    Ambassador Edelman. No, it would not be positive.
    Senator Cotton. Thank you.
    On the point about Jerusalem being the capital of Israel, 
was it an irresponsible and rash decision of this Senate to 
vote in July, 90 to nothing, that Jerusalem is the capital of 
Israel? Anyone can take it.
    Ambassador Jones. Senator Cotton, I think it's just a 
recognition of fact. I'm a frequent critic of the Trump 
Administration, but the President was acting in conformance 
with the law that he was asked to implement. My one criticism 
would be I think the step would have been more usefully made in 
the context of a broader plan or proposal as opposed to a one-
off. But otherwise----
    Senator Cotton. Thank you.
    I want to turn now to Syria, and I'll start with Ambassador 
Crocker, since I believe you are the only member of the panel 
who served in Damascus, although everybody obviously has been 
impacted by their service, and then we can get other reactions 
after Ambassador Crocker responds.
    What are the best steps the United States could take at 
this point, not looking retroactively and assigning blame or 
credit for any action anyone took in 2011 to this point, to 
reduce Iranian influence inside of Syria? I'd like your advice 
in terms of best practical steps. I don't think anyone believes 
the American people will support a large-scale conventional 
military deployment to Syria, but what are the best practical 
steps that we could take that could have the durable support of 
the American people to minimize Iranian influence inside of 
Syria?
    Ambassador Crocker. Thank you, Senator, and thank you for 
your service.
    There are several things. The most critical thing in my 
view is pull together a policy. What we're seeing now with the 
Syrian Democratic Forces that were so closely allied with us in 
the campaign against ISIS, they don't know what we're going to 
do next, so they're in touch with everybody. I mean, they're 
talking to the Assad regime, they're talking to Tehran, they're 
talking to Hezbollah, because they know we haven't set a 
policy, and they've got to live there.
    So we're into a period now, I think, that's pretty 
dangerous, where all the actors are going to posture and take 
positions as though we're not there because we may not be. So 
that's one.
    Second, we need to be present diplomatically and 
politically. The Turks, the Iranians, and the Russians started 
this Astana process as a counterpoint to Geneva; we weren't 
even in the room. Now I guess we're there as an observer. We're 
the United States of America. If we're part of a process, we 
don't stand on the sidelines and watch. So I would hope that we 
would get a grip on the political processes that are in play, 
Astana and Geneva, and use those as a forum to start serious 
thinking on the way ahead, which is going to be complicated and 
messy, but also to assert that the United States is there for a 
reason. These are our security interests, and we are going to 
be very much a part of that process. We are not going to leave 
it to our adversaries, such as Iran.
    Senator Cotton. Gentlemen, any other thoughts on that one?
    Ambassador Jeffrey. Very quickly, Senator, we have a lot of 
assets in Syria even though it doesn't look that way. We and 
the Turks between us hold about a third of the country and have 
a lot of local allies even though we're not coordinated with 
the Turks, but that's a question of diplomacy. The Israelis 
operate militarily throughout Syria in the air. That's another 
factor. We have a diplomatic entree with U.N. Resolution 2254, 
which means it's all of our business how Syria is organized. We 
can leverage the possibility of reconstruction as a means to 
try to force a wedge between the Russians, as Ambassador Jones 
was talking about, and the Syrians and the Iranians, because 
ultimately their interests are different. But we have to keep 
not just diplomacy but a military presence there, and that 
means working with Turkey, the Kurds in Iraq, and the Iraqi 
government so that we can physically get in and out, because we 
need entree to that region.
    Senator Cotton. Well, my time is expired, but thank you 
again for your appearances here. I know some of you have 
already failed at retirement. To the extent you ever fail again 
and want to come back into government service, I bet there are 
a bunch of senators on this committee and elsewhere in the 
building that would be happy to vote to confirm you to another 
position in the United States Government.
    Senator Inhofe. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here today.
    As we've been talking about over the past few months, local 
forces trained and supported by the United States-led coalition 
have retaken former ISIS strongholds in Mosul and Raqqa, and I 
want to follow up on Senator Cotton's question, but I want to 
broaden the inquiry just a little bit to ask more about what 
happens after we defeat ISIS on the battlefield.
    It seems like right now we have challenges both with Russia 
and Iranian forces and their proxies, and that they're moving 
very quickly to take advantage of conditions on the ground in 
order to reach their own regional objectives.
    So, let me just start with you, Ambassador Jones. What can 
the United States do to push back against Russian and Iranian 
assertiveness and try to set the conditions for a political 
settlement that is in our interests and in the interests of the 
Syrian people?
    Ambassador Jones. Thank you, Senator Warren. I think most 
importantly what all of us have touched on is the need for a 
regional approach to containing and pushing back on Iranian 
malign interference throughout the region, and this is, of 
course, going on in Syria, but it's going on in Iraq and Yemen 
and Bahrain and in, of course, Lebanon. So I think we need an 
overall regional strategy to help to contain Iran, and then I 
think that will bring into higher relief the malign 
interference that it's carrying out inside of Syria.
    I think it's going to be very difficult given our limited 
tools to affect Iranian conduct in Syria without weakening its 
other activities.
    I'd also say that, in regards to Russia, as I mentioned 
earlier, there's nothing very attractive about Russian 
involvement in Syria. The Russians saved the Bashar regime in 
2015. They haven't really known what to do with it since, as 
Ambassador Crocker said. This was to preserve their own status. 
But they are interested in cooperating with the United States 
for a variety of reasons. So reaching agreement on the de-
confliction zone in southwestern Syria I think does represent a 
positive model for cooperation with the Russians, and also for 
holding the Russians accountable.
    Senator Fischer asked how do you hold them accountable. 
Well, I think we have to hold them accountable by highlighting 
when they don't meet their commitments, such as if they are not 
able to facilitate or to force the withdrawal of Hezbollah and 
Iranian forces from some of those areas in southwestern Syria, 
then that should be highlighted and that should be called out.
    Finally, I think we need to continue to press for the 
Geneva process, as Ambassador Crocker said. We need to be 
engaged diplomatically, using all of our international tools.
    Sorry to go on for so long.
    Senator Warren. No, no, I appreciate it, and I appreciate 
the focus on Russia. It's been Russian support for Assad that's 
prolonged this crisis. Of course, the Iranians continue to 
destabilize Syria. It seems to me the Trump Administration 
needs a clear strategy for ending the violence, for holding 
Assad accountable, and for making sure that the other actors on 
the ground don't take advantage of what happens in this post-
ISIS world.
    There's one other thing I'd like to ask about before I'm 
out of time this morning, and that is about the ongoing Saudi 
military operation against the Houthis in Yemen and the 
resulting humanitarian crisis there. The situation on the 
ground in Yemen continues to deteriorate. Outside experts 
estimate that more than 10,000 Yemenis have been killed in the 
fighting and millions more are at risk from famine and disease.
    In June, 47 senators voted to disapprove the sale of United 
States precision-guided missiles to Saudi Arabia, an expression 
of deep concern that many of us have had about this 
humanitarian crisis.
    So let me just ask here how the United States can use our 
leverage with the Saudis to limit civilian casualties and to 
ensure that Yemeni civilians receive food and medicine and 
other basic human necessities.
    Ambassador Jones, Ambassador Crocker, who would like to 
answer this one? Go ahead.
    Ambassador Jones. Very quickly, I will say that I think 
that we should be concerned about humanitarian conditions and 
civilian casualties in Yemen. I think the Saudis can do better. 
I think the solution is to work more closely with the Saudis. I 
think that conditioning assistance will be counterproductive 
and risks extending the conflict there. I think we're at a 
crucial moment now with the new schism between the Houthis and 
the General People's Congress, the party of Ali Abdullah Salah, 
the recently killed former president.
    I think this is a time to push for a political resolution. 
But to do that, the Houthis have to see a very credible 
military threat, and they should not see any uncertainty from 
us in our support for the Saudi coalition.
    Senator Warren. I hear your point on this. I just want to 
push a little bit. I think this conflict and humanitarian 
crisis in Yemen is breeding more extremism in the region and 
continues to put us more at risk, and there's no doubt that 
Iran should stop making this conflict worse. But let's not 
forget that Saudi Arabia is the one receiving weapons from us 
and receiving support from us, and I think we need to hold our 
partners to a higher standard here. We have a crisis on our 
hands that's getting out of control.
    I'm out of time, so I'll stop there, Mr. Chairman. But I 
think we've really got to raise the bar on this one. Thank you.
    Senator Inhofe. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair. Thank you, gentlemen, 
as well, for your committed service to the great United States 
of America.
    Ambassador Edelman, I'm going to start with you in regards 
to Turkey, and then if anybody else would like to hop in as 
well, I'd appreciate that.
    Sir, you once served as the Ambassador to Turkey. Thank you 
for doing that. But I think you would agree with me that our 
relationship with Turkey has changed drastically since your 
time in service in that country. Erdogan continues to 
consolidate power, he suppresses his opposition, and he has 
really cozied up to Russia. This complicates our security 
cooperation as it pertains to NATO [North Atlantic Treaty 
Organization] and our collaborative efforts within the Syrian 
Democratic Forces to defeat ISIS in Syria.
    If you could, Ambassador, just simply, are you optimistic 
about the direction of United States-Turkey relations?
    Ambassador Edelman. I'm not, and I invite my colleague, Jim 
Jeffrey, who served multiple tours in Turkey, including as 
ambassador, to add and subtract from what I say. But I'm not 
optimistic. I think the relationship is likely to get a little 
bit worse before it gets better. I think that's largely driven 
by President Erdogan's domestic calculations about what he 
needs to do to consolidate the personalistic presidential 
regime that he is trying to impose on Turkey in which he now 
has to face the electorate one more time for the presidency 
when his term comes up, and I think that's driving almost 
everything, and a lot of those calculations drive him to do 
things that make the relationship worse.
    I also think that to some degree, while I obviously think 
it's a huge mistake for Turkey to procure S-400s and to cozy up 
to the Russians as they have, to be fair, some of that is a 
reflection of the vacuum that we have created which my 
colleagues have been talking about. I mean, we have let Russia 
and Iran become the arbiters of Syria's future. Syria sits 
right on Turkey's border. They're housing three million Syrian 
refugees on their territory, which has imposed enormous costs 
on Turkish society.
    So, I mean, we bear a little bit of the blame here for this 
deterioration in relations, going back a number of years to the 
outbreak of the civil war in Syria back in 2011, Senator Ernst. 
But I don't think we can tolerate some of the behavior that our 
Turkish allies are showing, and in particular the use of 
American citizens and American Foreign Service national 
employees, in essence, as hostages to the desires of the 
Turkish government, their attempt to put bounties on the heads 
of former United States Government officials like Henri Barkey 
and Graham Fuller and Michael Rubin, people who they are 
accusing of being coup plotters, an outlandish charge. I mean, 
we really have to draw the line here and push back very hard on 
this.
    Senator Ernst. Right. With that aspect, Ambassador, and 
Ambassador Jeffrey, I would appreciate your opinion as well, or 
your thoughts on this matter, then what can we do as the United 
States to work with and change the current trajectory of 
Turkey?
    Why don't we start with you, Ambassador Jeffrey?
    Ambassador Jeffrey. Yes. I knew this question would come 
up, Senator, and because none of us want to be an apologist for 
Turkey because the things they do are toxic, but let me make a 
couple of general points.
    We've talked about how we're going to deal with this 
region, and as Senator Cotton said, we don't want to put lots 
of ground troops in there. That means we have to rely on five 
countries--Israel, Saudi Arabia, Turkey, Pakistan, and Egypt. 
We've already talked today about the problems with many of 
these countries. We wouldn't pick these allies if we were 
coming up with a different Middle East, but we have to deal 
with the Middle East we have.
    They're crucial, and we can't even get to this region 
without them. This is from yesterday's Military Times: 
``Deployed to Incirlik Air Base, Turkey, the 74th Fighter 
Squadron has dealt punishing blows to ISIS fighters in support 
of United States-backed Kurdish fighters known as the Syrian 
Democratic Forces.' That was yesterday. Those Syrian Democratic 
Forces are commanded and controlled by a PKK [Kurdistan 
Workers' Party] offshoot, as Ash Carter told this committee two 
years ago, that is dedicated to overthrowing Turkey. We're 
supporting that group because we need it against ISIS. Turkey 
complains, screams, does all these things against us, and every 
day those planes fly. That's the Middle East we have to deal 
with today. It's unpleasant, it's transactional, it's ugly, but 
we and Turkey have very similar strategic goals. Russia and 
Iran and, to some degree, Syria want to change the mix of the 
Middle East. We do not, Turkey does not, and at the end of the 
day we just have to push back, as Ambassador Edelman said, but 
don't cut off this relationship. It is crucial to us.
    Senator Ernst. Very good. I appreciate it, gentlemen. My 
time has expired.
    Senator Inhofe. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. Thank you all 
very much both for your service at the State Department, as 
well as for being here today.
    Ambassador Crocker, you talked about the fact that we're 
not even at the table in the discussions in Syria right now, 
and I would argue that part of the problem there is that we 
have a State Department that is not functioning in the way that 
we would like it to because we have an administration that 
doesn't recognize the importance of diplomacy and the role of 
the State Department in foreign policy. I'm not even sure how 
much it recognizes the importance of foreign policy.
    But I wonder, I'm going to ask you, Ambassador Jones, 
because you were most recently the State Department's top 
diplomat for the Middle East, I wonder if you could talk about 
what we could be doing to better enhance endeavors with our 
allies and partners in the Middle East through traditional 
diplomatic channels.
    Ambassador Jones. I think that this administration actually 
has taken significant steps to improve relations with key 
partners in the Middle East. I do think that the Riyadh summit 
in June was a watershed moment when President Trump was able to 
convene the Islamic world and make a very strong declaration 
both of respect for Islam and also a rejection of extremism. I 
think these kind of measures are significant and should be 
continued.
    As I said in my remarks too, we have to make sure that we 
actuate these gestures that are being done at the very senior 
levels at the working levels, and we need to use all of our 
soft power tools in places like Iraq and Saudi and in the Gulf 
and in other parts of the Middle East, in Egypt certainly, to 
make clear the value proposition of the United States 
relationship, and that means business, that means technology, 
investment, and----
    Senator Shaheen. Well, that certainly makes sense. I'm 
sorry to interrupt, and I appreciate what you're saying about 
the message that that sent to other Middle Eastern countries 
about how we view our relationship with Saudi Arabia and with 
Sunni countries. But I don't know, Ambassador Edelman, I think 
it may have been you who talked about the disconnect between 
our policy objectives and what we're seeing from some of our 
allies in the Middle East, and I wonder if you would connect 
what Ambassador Jones is saying to what we could do to be 
influencing Saudi Arabia's behavior so that it doesn't try and 
manipulate Lebanon, for example, so that it doesn't help create 
a famine in Yemen in a way that is not in anyone's interest. 
How can we encourage them to be on the same page in terms of 
strategic objectives?
    Ambassador Edelman. Senator Shaheen, it's nice to see you 
again.
    Senator Shaheen. Nice to see you.
    Ambassador Edelman. I think it's important to go back to 
what I was saying in response to Senator Ernst's question about 
Turkey. A lot of the things that we see Turkey doing that we 
don't like are a function of their reaction to having to fend 
for themselves rather than rely on the security guarantees they 
get through NATO [North Atlantic Treaty Organization] and from 
their traditional strong bilateral relationship with the United 
States.
    In my opening statement I talked about some of the 
challenges that have been created in the region by the 
appearance that the United States was receding from the region 
and giving up its role in the region. I think when you create 
that kind of vacuum, I think what happens is people try to do 
it on their own. In the case of the Saudis, I think they're 
doing it on their own without a lot of experience of having 
done this. So it's not altogether surprising that they will do 
things in a way that we think makes things worse rather than 
better.
    I think the most important thing we can do, and I think 
Ambassador Jones talked about this a little bit in his response 
to Senator Warren's question, is to make our allies understand 
that we are there for the long term, that we have their back, 
that we are going to be with them, but that we think maybe they 
want to adjust what they're doing a little bit. You get much 
more receptiveness to that kind of guidance, which Ryan Crocker 
excelled at in multiple posts in the region, if you've got a 
strong alliance basis on which to base it.
    Senator Shaheen. Doesn't that speak, then, to a very robust 
diplomatic effort in the region?
    Ambassador Edelman. Of course.
    Senator Shaheen. While I appreciate the singular event in 
Saudi Arabia, the fact is we don't have an ongoing strategic 
response that connects what we're doing militarily and what 
we're doing diplomatically, that I can see, and that that, I 
think as all of you have laid out, is one of our challenges 
there. We don't have a long-term, consistent strategy for what 
we're doing in the region.
    Ambassador Jeffrey. Very quickly, Iranian missiles and 
rockets in southern Lebanon and in northern Yemen are strategic 
existential threats to two of our key allies, Saudi Arabia and 
Lebanon. Ten thousand more dead civilians in the Middle East, 
in a region that's seen 1 million in the last 30 years, by my 
count, or a stable coalition government in Beirut are not going 
to deter the Saudis and the Israelis from acting against this 
threat. How they act against it, as Ambassador Edelman said, is 
where we should be more active.
    Senator Shaheen. Well, I certainly agree with that. That's 
one of the reasons I've been a sponsor with other members of 
this committee of Hezbollah sanctions, so that we can put more 
pressure on them. But as you point out, it's got to be 
consistent.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Perdue?
    Senator Perdue. Thank you, Mr. Chair. I want to echo other 
comments today about the august group we have here. I've 
learned so much just sitting here the last hour from you 
gentlemen after spending a couple of years on Foreign 
Relations, so I hope you take this show on the road over there 
as often as you get asked.
    Ambassador Jeffrey, I want to move this a little bit. I 
think not only is this a pivotal point in time, it seems to me 
we've got a couple of pivot points in the region 
geographically. The GCC [Gulf Cooperation Council] is having a 
crisis right now, and Qatar is right in the middle of that, and 
two of our allies really are creating a destabilizing influence 
I think right now when we need to be showing force against the 
Iran-Russia influence over there. We've got about 10,000 
troops, including Central Command and our air assets, plus a 
full deployment of a full brigade's worth of armor sitting 
there. So it's a pivot point for Afghanistan and other points 
in the region.
    Can you speak to us just briefly about your perception of 
what's this really about between Saudi Arabia and Qatar, and 
what should we be doing to influence two allies to cut it out 
and let's see if there's alignment that we can find here?
    Ambassador Jeffrey. I first had to do an inventory of 
whether any of my colleagues had served in Qatar, in Saudi 
Arabia, so I could kick the thing. I think those are the only 
two places where Ryan Crocker hasn't served, but he probably 
has a view because he did well on Russia.
    But anyway, it gets back to what all of us, but I think 
most eloquently Ambassador Edelman, has said. Our allies, left 
alone to deal with the Iranian threat, and secondarily the 
threat of Islamic extremism, because there's a Muslim 
Brotherhood element between Qatar and Saudi Arabia, and the 
Emirates as well, flail around and do things that are 
uncoordinated. They don't check with us enough in advance, and 
we wind up with a mess.
    I think this administration, despite a couple of initial 
comments by President Trump, has taken a good position. I saw 
this at the security conference this last weekend out in the 
Gulf. They basically are, all in all, supporting Qatar. I would 
say it's 55/45, because we have great interests with the Saudis 
and the Emiratis. But they clearly made a mistake. Qatar is 
objectionable in many ways, just like, as I said and as we 
discussed at length, Turkey and Saudi Arabia and other places. 
But we can't be going at each other, scratching each other 
because of these secondary sins when the real sinning in the 
region is done by Islamic terrorists and Iran. So we have to 
get a better hold of our allies.
    Senator Perdue. What should we be doing with Qatar 
specifically in Saudi Arabia to keep Qatar from leaning back 
toward Iran, which it certainly looks like they are in a 
position to do?
    Ambassador Jeffrey. They will to some degree because it 
starts with the Paz gas field. I mean, they're going to have a 
strong relationship with Iran because they share that critical 
gas field. The more we can get the Saudis and the Emiratis to 
roll back, the more the Qataris presumably will eventually find 
that they don't have to keep turning to the Iranians, the 
Russians, Turkey and others, and this feud eventually blows 
over. There was an earlier feud, I think 2014 or 2013, and it 
did blow over. This one looks uglier.
    Senator Perdue. Ambassador?
    Ambassador Edelman. Might I just add something to my 
colleague's comments? This is more in the nature of a problem 
in search of a solution than a solution, but one of the 
problems I think we have with both Turkey and with Qatar is 
that they house very important United States military 
facilities. As a result of that, both of those governments 
have, I think, concluded that there is a limit to how much we 
will push them on certain things we don't like because of the 
desire to keep those facilities, which are very important 
facilities, available.
    I think we need to look at more diversified and resilient 
basing in the region so we don't become hostage to this kind of 
behavior and we can push back a little bit more effectively 
when the Qataris do things we don't like. I have a certain 
amount of sympathy for the Saudi and Emirati position about the 
Qatari support for the Muslim Brotherhood in the region. They 
did a lot in the early days of the Syrian civil war to make 
things infinitely worse than they had to be.
    So we have to figure out a solution to this ourselves so 
that we don't find ourselves being held back from pushing back 
on some of the things our allies do that we think are wrong.
    Senator Perdue. You bring up an interesting point from a 
strictly military point of view. We talked about it in here. 
After 17 years of war over there, I'm shocked at our support 
footprint. Incirlik is at risk. I just got back from a trip 
earlier this year to Pakistan and Afghanistan to see how we 
resupply that and what we have to do to do that. I mean, this 
is a very precarious footprint we have over there, and now 
Russia is at Lodaki and Tartus, moving down in the Horn of 
Africa. China is in there now. So this is a key, key topic, I 
think, to support not only the diplomatic effort but also the 
military support for that too. It's a great point. Thank you.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman. Thank you to each 
of our very distinguished witnesses. It's been a fascinating 
discussion, and I appreciate your service and your willingness 
to impart some of your knowledge with us here today.
    In Michigan, I'm very proud to represent a very large Arab-
American, Muslim-American community that focuses on these 
issues quite a bit, given that that is their homeland. In 
addition to that, I have a very large and thriving population 
of religious minorities from the Middle East as well, 
particularly Chaldeans and Yazidis, and ISIS has been 
absolutely devastating. Their actions have been devastating to 
these ethnic communities and have really showed, I think, a 
unique brutality toward them and their historical homeland.
    I supported legislation that declared the atrocities 
committed by ISIS against Christians, Yazidis, and other 
religious and ethnic minorities as war crimes, crimes against 
humanity and genocide. In March of 2016, then-Secretary of 
State Kerry declared ISIS was responsible for genocide against 
these groups in areas under their control.
    As Ambassador Jones mentioned in his written testimony, 
ISIS can be expected to go underground and to continue to 
attempt to terrorize Iraqis in the months and years ahead. So 
I'm concerned that despite the military successes that we have 
seen against ISIS, members of these communities are still going 
to face violence and persecution. But I'd like to hear from 
each of you, based on your experience, if you could provide an 
update as to how you view this situation and your 
recommendations as to what we should be doing and should the 
United States be doing more.
    I'll start at this end.
    Ambassador Crocker. Thank you, Senator. This is with 
respect to the religious minorities?
    Senator Peters. Religious minorities, correct.
    Ambassador Crocker. One of the lessons I learned a long 
time ago is beware of unintended consequences of major actions, 
and there is no action more major than a military intervention 
in someone else's country. You are setting in motion not third- 
and fourth-order consequences but 30th- and 40th-order 
consequences, as we are seeing to this day in both Iraq and 
Afghanistan.
    With respect to the minorities, they were doing okay under 
Saddam because they posed no threat to him. I mean, he was an 
equal opportunity dictator and murderer, but by and large the 
minorities could live in Iraq. I frankly question how much 
longer we're going to see a significant Christian presence, 
particularly on the Plains of Nineveh.
    I had a conversation a year ago that I will never forget 
with one of the patriarchs, and I won't go further in 
identifying him, who met with me in Europe with a prominent lay 
representative. The lay representative spoke first and said 
support us, make a clear declaration you will defend us, train 
us, arm us, so we can look after our local security, be an 
ally. The patriarch then said, please do none of those things. 
All you will do is paint a big bulls-eye on our backs to give 
the religious extremists grounds to say clients of America, and 
it will get even worse. So just don't do anything.
    That was a very sad moment for me, because I think we are 
looking at literally an existential threat to the minority 
communities in Iraq, and also in Syria for those who didn't get 
out. I don't have an answer for that except to say be careful 
what you get into.
    Senator Peters. I appreciate that. Anyone else have a 
comment?
    Ambassador Edelman. Senator Peters, I'd just say, first of 
all, I think we are witnessing an enormous tragedy in the 
region, which is in many places a likely loss of the various 
Christian and other heterodox minority communities, which is a 
shame for the region.
    I would just point out that in the Turkish context there 
are significant minority issues as well with the Olavi 
population, and we have one issue in Turkey where Pastor Andrew 
Brunson, a Protestant missionary, is being held by the 
government on very preposterous charges of being a coup 
plotter. So this is very broad throughout the region. In that 
case you're dealing with a NATO ally, not even a country that's 
outside the ambit of our normal alliances.
    Senator Peters. But in terms of the Nineveh Plain, is there 
anything specifically we should be doing? We have two more 
ambassadors within the remaining time, which is limited.
    Ambassador Jones. Thanks, Senator Peters. I think that we 
can be proud of our record on stabilization throughout Iraq, 
and I think continuing to invest in stabilization, which is an 
immediate, fast-action, low-cost process of restoring 
electricity, water, education to communities so that people 
return to their homes. That's probably the best thing that we 
can do for them.
    I want to associate myself with all of Ambassador Crocker's 
remarks and also add that when we meet with these Christian 
leaders in Iraq, they say please don't make it so easy for our 
people to leave Iraq, because we're losing our communities 
here, and the more we lose our communities, the weaker we 
become. So we have to think, as Ambassador Crocker said, 
through second-, third-, and fourth-order consequences.
    But the best thing we can do, I think, is help people 
return to their homes and help build up institutions in Iraq 
that will protect the rights of these individuals.
    Senator Peters. Thank you.
    Senator Inhofe. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, first of all, let me just say thank you for your 
service to our country. What you do goes unnoticed in many 
cases, and yet it is so critical to our long-term successes in 
international diplomacy, which is much more desirable than 
international intervention with military force.
    Let me go back to the JCPOA for just a moment. I want to 
just walk through the logic of where we're at today. The 
reality is, it's in place. The reality is that we have up-
fronted with resources that were committed by the United States 
to Iran. Those have been received by them. Now the obligation 
to execute their portion of the contract, the JCPOA, is in 
place, and they have certain obligations that they have to 
respond to.
    I question whether or not there is built into the JCPOA the 
appropriate penalties involved for their failure to do so, and 
I'd like to challenge, if I could, the thought process that I'm 
laying in front of you that this is really a one-sided 
obligation forward. This is up to them as to whether or not 
they respond, and yet at the same time, since there is nothing 
more that we have to do with this in terms of any other 
obligation that we're committed to if they behave, if they 
behave, then the JCPOA has simply delayed the time period in 
which they will have nuclear capabilities.
    On the other hand, if they do not, then simply the JCPOA 
has not worked, other than the fact that we have other allies 
who have supported this effort and who are also part of the 
international community who may or may not feel some obligation 
to condemn Iran when they do or if they do fail.
    Would you, if I could ask each of you briefly, could you 
either correct my assumptions involved in the discussion or 
reaffirm what I'm suggesting?
    Ambassador Jeffrey. Let me start, Senator. I was involved, 
as was Ambassador Edelman, in the Bush Administration, which 
took the basic decision not to use unilateral means, which is a 
euphemism for war, to deal with the Iranian problem, but to go 
to the P5+1. That was formed during the Bush Administration to 
negotiate internationally. When you go down that route with the 
IAEA [International Atomic Energy Agency] and the non-
proliferation treaty and the U.N. Security Council, you're 
going to get a marginal product because that's the nature of 
international affairs.
    What we got was a marginal product. It also does the job 
for 10 years of keeping them a year away from having a nuclear 
capability if they adhere to it.
    Your specific question was do we have tools if they don't 
adhere to it. The answer is absolutely. Article 36 allows any 
member, including Iran, by the way, if the others are not 
living up to their actions, to stop all or a part of the 
commitments made under the agreement. That would include our 
sanctions. That's article 36. There's a process you have to go 
through for about three months to try to convince the others 
and try to resolve it. But at the end of the day, you can 
unilaterally within the agreement stop doing things that you 
were supposed to do in it. Again, Iran can retaliate.
    The second thing is you have the snap-back provisions of 
article 37 at the end of that process. We, as a state that has 
the veto in the U.N., it leads to a U.N. resolution essentially 
saying continue this agreement, and if you veto it, the 
agreement basically dies, or the U.N. aspects of it die, which 
is tantamount to killing it.
    So there are very powerful tools that we do have within 
this ten-year period. But at the end of the ten years, as 
President Obama admitted, it's a different ball game, and we're 
going to have to figure out what we're going to do with that 
then.
    Senator Rounds. Other thoughts?
    Ambassador Edelman. Senator Rounds, I largely agree with 
you, and let me make just three points, some of which goes back 
to Senator King's question.
    First, I think the JCPOA was inadequate in dealing with the 
past military dimensions of Iran's activity. The IAEA ended up 
closing the file on that without really getting to the bottom 
of all the issues that had been raised in the 2011, the 
November 2011 IAEA report, NxK I think it was, that outlined 
all the different problems that more than ten countries' 
intelligence services had provided evidence to the IAEA about 
with regard to military activities. Without that as a baseline, 
it becomes very difficult to verify the agreement.
    Secondly, the provisions of the JCPOA itself for 
inspections were far from the anytime/anyplace that was 
originally promised and which, for instance, were a very 
important part of verifying South Africa's abandonment of its 
nuclear program.
    The third element is, I think, what I call the under-
compliance which we've seen, which is the nibbling around the 
edges, which are activities Iran is engaged in which were then 
`'solved'' by side deals after the fact. So twice Iran--and 
this is in answer to Senator King's question--twice Iran 
exceeded the amount of heavy water it was allowed to produce. 
Once we solved it by buying it, once we allowed them to switch 
it out for Russian uranium. They missed other deadlines for 
amounts of low enriched uranium above certain percentages and 
certain amounts, which we then solved by, again, these side 
deals.
    So there hasn't been a major violation. The IAEA has said 
that repeatedly. But there has been this pattern of nibbling 
around the edges, which I think is very dangerous because over 
time it conditions the Iranians to believe that they can engage 
in bigger violations and perhaps get away with it.
    Senator Rounds. Thank you, and I apologize. My time has 
expired, but I most certainly appreciate all of your service, 
and thank you very much for your responses today. Thank you.
    Senator Inhofe. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    You are probably aware that on Monday, Turkey will meet 
with Russia to finalize a deal to purchase the Russian S-400 
surface-to-air missile system. Saudi Arabia has also expressed 
an interest in this system. I'm concerned that this trend or 
that this kind of action may be part of a trend, a very 
troubling trend of our allies in the region turning toward 
Russia to invest in this kind of system. Among its other 
distinctions, it is incapable of integration, or at least not 
readily so, in the United States or NATO defenses.
    My question to all of you--and I really appreciate your 
being here. Your insight and expertise is enormously valuable 
to us, as it has been while you were in service. What should we 
be doing to address this issue? If these systems are purchased 
and installed, what are the implications for our military and 
our diplomacy around the world?
    Ambassador Crocker. Well, as the person who knows least 
about Turkey, let me start. It's an important question, 
Senator, without doubt. I think, as you suggested, there are 
some real issues of the effect this will have on Turkey's 
defense capabilities. As you know, it's a Russian system. It's 
not compatible with Turkey's systems, which are our systems, 
and have been for the last 70-odd years.
    But I do think we need to take a deep breath on this one. 
Turkey was a founding member of NATO precisely because of the 
Soviet Union. They have a history going back through the 
Ottoman Empire of confrontations between two great empires, 
theirs and the Russian Empire. So I think there are some 
natural limitations here.
    I would say with respect to what we should do, obviously 
Turkey is doing a lot of things we don't like. They are a NATO 
partner in a region where we don't have a choice between 
democracy and autocracy. That's not on the table. It's the 
forces of order versus the forces of disorder. Turkey has 
always been a force of order. I think we, again, need to 
engage, if we could just get a few assistant secretaries 
confirmed, and ambassadors, and start going through the 
relationship, as happened under Ambassador Jeffrey and 
Ambassador Edelman. We need to get back to that point where, 
indeed, Turkey is a NATO ally.
    Finally, I would just say one of the reasons we are where 
we are was the consistent refusal of the European Union to 
seriously entertain Turkey's bid for membership, good enough to 
fight and die for NATO but not good enough to join the 
gentleman's club of the EU [European Union]. The Turks are a 
proud people. They were embarrassed, I think, by that, and 
Erdogan seized on it.
    So everybody needs to take a deep breath here. I think this 
is salvageable, but we kind of need to get on with it.
    Senator Blumenthal. Thank you.
    Ambassador Edelman. Senator Blumenthal, I agree largely 
with what Ambassador Crocker said. First, again, a little bit 
of historical context to be fair to our Turkish allies. On a 
couple of occasions over the past decade and a half, when the 
issue of defending Turkey from ballistic missile threats came 
up, it was tough to get the NATO assets down to Turkey because 
of reluctance on the part of some of our allies who dispose of 
the assets and debates inside of NATO, and I think that's 
opened a question mark in Turkish minds about whether NATO will 
actually, at the end of the day, be there to defend them, to be 
fair to them.
    Having said that, it's very clear that the S-400 is not 
compatible with NATO systems, as Ambassador Crocker said, and 
that was also true of a Chinese system that they were thinking 
about buying before the S-400 became available to them.
    We do need, I think, to engage with them and remind them of 
what that actually means, both for broader NATO defense but 
also for Turkey's defense, because it means there are going to 
be a lot of early-warning assets that won't be available to 
them that will put them at some risk, and that does require an 
ambassador in place. We do have an Assistant Secretary for 
European Affairs, which is a good thing, a very capable one, as 
a matter of fact, but we need to get them engaged in this now 
rather than wait until it's too late.
    I mean, one of my concerns about the lack of staffing in 
the Administration has been that, if we go back to something we 
discussed earlier in this hearing, which was the miscalculation 
of Massoud Barzani about the referendum in Kurdistan, I think 
the United States Government was very late to publicly get out 
there and express its opposition to this. Back in the good old 
days when giants walked the earth, and I'm talking about my 
colleagues to the left and right, we would have been engaged in 
this at a much earlier point in time and have had more time to 
manage the problem, I believe.
    Ambassador Jeffrey. The entire NATO missile defense system 
focused on Iran that the Obama Administration put in following 
the Bush Administration is based on NATO radars that then-Prime 
Minister Erdogan personally agreed to in 2009 or 2010.
    Senator Blumenthal. Thank you. My time has expired, so I 
apologize. I have a lot more questions on this, but whether or 
not giants ever walked the earth, I think we would settle for a 
few ordinary experienced human beings in those ambassadorships 
today. Men of your caliber would be even better, men and women 
of your caliber would be even better, but there is no 
ambassador to Turkey right now. There are no ambassadors in 
Qatar, Saudi Arabia, Egypt, Jordan, Somalia, certainly very 
critical roles that have to be filled, and the connection 
between our military strength and our diplomatic strength is 
inextricable, as you know, and unfortunately it's been ignored 
by this administration.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thanks to all of 
you. I just would recommend to my colleagues--I apologize for 
being late today, but the Foreign Relations Committee had a 
closed briefing on the Administration's new counter-terrorism 
guideline proposal, which is the proposal for changing the 
Obama doctrine about the use of drones, and I think some on the 
committee have received that briefing. But I would encourage--
because it really bears on this topic today, I would encourage 
everybody to try to get that briefing.
    I had been following a little bit when I wasn't here the 
questions that were asked and, Ambassador Jones, you talked 
about the Kurdish referendum in your opening statement. But I 
would really like to have all of you address this issue, not 
just the referendum but working down the road with us on the 
Kurds. They have been wonderful partners. Their independence 
aspirations creates real challenges down the road for a unified 
Iraq.
    They have been wonderful partners in Syria, but our work 
with the Kurds in Syria has been one of these agitation points, 
among others, with our relationship with Turkey as an ally.
    What do you think the long-term policy of the United States 
should be vis-a-vis the Kurds in both Iraq and Syria?
    Ambassador Jones. Well, I think in the first instance, as 
we agreed, the referendum has had negative effects for the 
Kurds. So we should focus our efforts now on reconciling 
between Erbil and Baghdad. I think many of us here are close 
and warm friends with Massoud Barzani. I still think that he is 
an outstanding leader in Kurdistan. But now the Kurds and Prime 
Minister Abadi need to find ways to return to the level of 
cooperation that they enjoyed in the lead-up to the Mosul 
campaign.
    I'm frankly more troubled by the situation in northeastern 
Syria, although I think it was absolutely necessary to carry 
out the military cooperation we have. I think now we do need to 
take seriously the Turks' concerns about the rise of the YPG 
[People's Protection Units] there, and we need to make sure 
that our military presence there does not create a political 
monopoly for a political organization that is really hostile to 
U.S. values and ideology.
    So I think my concern about the referendum in Iraq was that 
it wasn't well prepared, it wasn't coordinated with us, it 
wasn't coordinated with the Iranians, who do have a role, and 
it wasn't coordinated with the Turks and with Baghdad. So I 
think that's the lesson, that if the Kurds want to move forward 
on this agenda, there needs to be much more deliberation and 
understanding between all of the parties in the region on how 
this should go forward.
    Senator Kaine. Other comments?
    Ambassador Jeffrey. The region, and that begins with 
Turkey, can--as I said, the Turks are allowing us to support 
the PKK offshoot Kurds in Syria every day--reluctantly, with a 
lot of bitching, but they do it.
    The region, and Turkey in particular, can support 
autonomous Kurdish entities to one or another degree--and it 
varies because these are very different kinds of Kurds in the 
two countries, in Syria and Iraq--as long as it fits, as long 
as we're there, the Turks know why we're there, and the Turks' 
interests are taken care of, and these are not violations of 
the unity of those countries involved. In Syria, I'm less 
concerned. But with Iraq, Senator, that's 5 million barrels of 
oil produced on a good day. They don't have many good days with 
the OPEC [Organization of Petroleum Exporting Countries] quota 
and such, but they can do that today if they needed to, and 
they can go up soon to seven or eight. That's getting into the 
Saudi Arabia category. That's a very important trump card, so 
to speak, in the Middle East, and we don't want to just break 
it up.
    The timing was wrong, the idea was wrong, and what it has 
done is it has set the Kurds back terribly in terms of their 
ability to survive, because much of the oil they were exporting 
now is in central government hands. The Turks are still 
allowing them to export their own oil, but that's about half of 
what they were exporting before, 650,000 barrels.
    So there is major political, security, and economic aspects 
of this, and they have gone in three months from one of the 
best good-news stories in the region to another basket case.
    Senator Kaine. Mr. Chairman, my time is running out, but I 
know you're interested in this question too. Could I let the 
other two witnesses answer the question as well? Please? Thank 
you.
    Ambassador Edelman. Senator Kaine, I'm not sure how much to 
add to what Ambassador Jones and Ambassador Jeffrey just said. 
We're wrestling here with a problem that is really, in a way, 
the last remnant of the Ottoman Empire, because the Kurds are 
the largest nationality in the world without a state, spread 
among four different states.
    I think all of us who have wrestled with this have, by and 
large, believed that if you could get decently organized 
societies that took into account minority rights, they would be 
better off as citizens of a pluralistic Syria, Iraq, Iran, and 
Turkey. In some sense, Turkey might have been the best case for 
that, and the opening that President Erdogan, back when he was 
prime minister, did to the Kurds I think was one of the most 
promising and constructive things he's done in his time in 
office, and that now, unfortunately, has fallen by the wayside.
    I think at the end of the day that's still the right 
answer, but right now things are so much in flux in the region 
that we may have to revisit this whole question about what the 
status of the Kurds is depending on how well these other states 
hold together over time.
    Senator Kaine. Mr. Ambassador?
    Ambassador Crocker. Great question, Senator. We have, of 
course, a long history with the Kurds of that region, and it 
isn't very pretty, particularly for them. I think above all 
what we need to do now is not, even with the best intentions, 
get them into a position where they are crossing red lines 
inside these states or across state boundaries, because we're 
probably not going to be around to back them up when the going 
gets rough. It's the same as, sadly, with the Christian 
communities.
    We are seen, broadly speaking, as a great power that comes 
and then goes, and there's just a lot to support that in the 
broader region. So I think the first thing we need to do is see 
if we can turn the referendum and its failure into the 
beginning of a discussion of now what for them. I think all of 
us here feel this way. Sadly, there are more nationalisms than 
there are nations, and the one thing that Turkey, Iran, Iraq, 
and Syria before 2011 all agreed on was no Kurdish state. Until 
that shifts, I think it would be the height of folly and of 
danger to encourage these aspirations on the part of the Kurds.
    Senator Kaine. Mr. Chair, thank you.
    Senator Inhofe. I thank you very much for bringing that up. 
We had both expressed a lot of concern back during the 
referendum time, and also one of the things that you may not be 
as aware of as we are, that Barzani has had a very close 
relationship with a lot of us over a lot of years, and it's 
been good.
    We had decided, Senator Reed and I, that we would not have 
a second round. However, if either one of you want to pursue 
anything further, we can do that.
    Let me just thank very much the panel. This has been a 
great panel. I kind of agree with what was stated by one of the 
members here, that you need to be appearing before one other 
committee that's out there.
    I want to thank you, Ambassador Crocker, for bringing out 
our deficiencies in confirmations. That needs to be said.
    Thank you very much for being here.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]

                                 [all]



</pre></body></html>
